<html>
<title> - ICE AGE FLOODS NATIONAL GEOLOGIC TRAIL; LAND ADJACENT TO WALNUT CANYON NATIONAL MONUMENT; AMEND THE NATIONAL TRAILS SYSTEM ACT; AND INCLUDING IN THE NPS CERTAIN SITES IN WILLIAMSON COUNTY, TN</title>
<body><pre>[Senate Hearing 109-101]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-101


ICE AGE FLOODS NATIONAL GEOLOGIC TRAIL; LAND ADJACENT TO WALNUT CANYON 
NATIONAL MONUMENT; AMEND THE NATIONAL TRAILS SYSTEM ACT; AND INCLUDING 
           IN THE NPS CERTAIN SITES IN WILLIAMSON COUNTY, TN

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                         S. 206          S. 588

                         S. 556          S. 955


                               __________

                             JUNE 28, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2005
23-014 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel




                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Alexander, Hon. Lamar, U.S. Senator from Tennessee...............     5
Archuleta, Elizabeth, Chairman, Coconino County Board of 
  Supervisors, Flagstaff, AZ.....................................    18
Cantwell, Hon. Maria, U.S. Senator from Washington...............     2
Kleinknecht, Gary, Past President, Ice Age Floods Institute, 
  Kennewick, WA..................................................    22
McCain, Hon. John, U.S. Senator from Arizona.....................     2
Miller, Tom, Mayor, City of Franklin, TN.........................    20
Murphy, Donald W., Deputy Director, National Park Service........     7
Snead, Larry, Executive Director, Arizona Trail Association, 
  Phoenix, AZ, accompanied by Lyn White..........................    25
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                               APPENDIXES

                               Appendix I

Responses to additional questions................................    33

                              Appendix II

Additional material submitted for the record.....................    37


 
ICE AGE FLOODS NATIONAL GEOLOGIC TRAIL; LAND ADJACENT TO WALNUT CANYON 
NATIONAL MONUMENT; AMEND THE NATIONAL TRAILS SYSTEM ACT; AND INCLUDING 
           IN THE NPS CERTAIN SITES IN WILLIAMSON COUNTY, TN

                              ----------                              


                         TUESDAY, JUNE 28, 2005

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:35 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. We'll call the meeting to order. I 
apologize for being late. This voting seems to interfere with 
our activities around here. So, I guess that's the way it is.
    At any rate, good morning. May I welcome Deputy Director 
Don Murphy and our other witnesses to today's subcommittee 
hearing. The hearing was originally scheduled for June 14, and 
I'd like to thank everyone for their patience and assistance in 
rescheduling.
    Our purpose for this hearing is receive testimony on four 
bills, which include studies of potential park units, the 
expansion of an existing unit, and one new designation: S. 206, 
a bill to designate Ice Age Floods National Geologic Trail, and 
other purposes; S. 556, a bill to direct the Secretary of the 
Interior and the Secretary of Agriculture to jointly conduct a 
study of certain land adjacent to Walnut Canyon National 
Monument in the State of Arizona; S. 588, a bill to amend the 
National Trail System Act to direct the Secretary of the 
Interior and the Secretary of Agriculture to jointly conduct a 
study on the feasibility of designating the Arizona Trail as a 
scenic national trail or a national historic trail; and S. 955, 
to direct a special resource study to determine the suitability 
and feasibility of including in the National Park System 
certain sites in Williamson County, Tennessee, relative to the 
Battle of Franklin.
    So, let's see, before we go on, would you have any opening 
statements, Senator?
    [The prepared statement of Senator McCain follows:]
   Prepared Statement of Hon. John McCain, U.S. Senator From Arizona
    Mr. Chairman, I greatly appreciate the opportunity to offer my 
comments regarding S. 588, the Arizona Trail Feasability Act. First let 
me say that this bill has the full support of the entire Arizona 
congressional delegation. In the U.S. House of Representatives, my 
colleague, Congressman Jim Kolbe, has been integral in assembling a 
companion bill and I commend him for his hard work. S. 588 would 
authorize the Secretaries of Agriculture and Interior to conduct a 
joint study to determine the feasibility of designating the Arizona 
Trail as a National Scenic or National Historic Trail. I am proud to 
have sponsored a bill that promises to highlight the national 
recreational value of the Arizona Trail.
    The Arizona Trail is a beautifully diverse stretch of public lands, 
mountains, canyons, deserts, forests, historic sites, and communities. 
The Trail begins at the Coronado National Memorial on the U.S.-Mexico 
border and ends in the Bureau of Land Management's Arizona Strip 
District on the Utah border. In between these two points, the Trail 
winds through some of the most rugged, spectacular scenery in the 
Western United States.
    For the past 10 years, over 16 Federal, state, and local agencies, 
as well as community and business organizations, have worked to form a 
partnership to create, develop, and manage the Arizona Trail. 
Designating the Arizona Trail as a national trail would help streamline 
the management of the Trail to ensure that this pristine stretch of 
diverse land is preserved for future generations to enjoy.
    The corridor for the Arizona Trail encompasses the wide range of 
ecological diversity in the state, and incorporates a host of existing 
trails into one continuous trail. The Arizona Trail extends through 
seven ecological life zones including such legendary landmarks as the 
Sonoran Desert and the Grand Canyon. It connects the unique lowland 
desert flora and fauna in Saguaro National Park and the pine-covered 
San Francisco Peaks, Arizona's highest mountains at 12,633 feet in 
elevation. In fact, the Trail route is so topographically diverse that 
a person can hike from the Sonoran Desert to Alpine forests in one day. 
The Trail also takes travelers through ranching, mining, agricultural, 
and developed urban areas, as well as remote and pristine wildlands.
    With over 750 miles of the 800-mile trail already completed, the 
Arizona Trail is a boon to recreationists. The Arizona State Parks 
recently released data showing that two-thirds of Arizonans consider 
themselves trail users. Millions of visitors also use Arizona's trails 
each year. In one of the fastest-growing states in the U.S., the 
designation of the Arizona Trail as a National Scenic or National 
Historic Trail would ensure the preservation of a corridor of open 
space for hikers, mountain bicyclists, cross country skiers, 
snowshoers, eco-tourists, equestrians, and joggers.
    S. 588 is the first step in the process of national trail 
designation for the Arizona Trail. If the study concludes that 
designating the Arizona Trail as a part of the national trail system if 
feasible, subsequent legislation would be needed to designate the 
Arizona Trail as either a National Scenic Trail or National Historic 
Trail.
    Thank you, Mr. Chairman. I urge the subcommittee to pass this 
legislation.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. And thank you 
for holding today's hearing and session so that we can hear 
about important projects, particularly one that impacts the 
Northwest.
    I appreciate the opportunity to discuss the Ice Age Floods 
National Geologic Trail Designation Act. And I also appreciate 
the opportunity to publicly thank the co-sponsors of this 
legislation--Senators Smith, Craig, Burns, and Murray. This 
distinguished list of Northwest Senators supporting this 
legislation represents a bipartisan regional consensus on the 
need to authorize this national trail.
    I also want to thank Gary Kleinknecht for agreeing to 
testify in favor of this legislation. Gary and his colleagues 
at the Ice Age Floods Institute have played such a integral 
role in bringing attention to the issues, educating the public, 
and energizing the region around this specific idea.
    In many ways, the members of the institute serve as 
proteges of the University of Washington Professor Harlen Bretz 
and the USGS geologist Joseph Pardee, who together formed--and, 
many times, fought for--the incredible hypothesis about this 
historic experience, the Ice Age Floods. We certainly 
appreciate their work.
    Mr. Chairman, my legislation, S. 206, would authorize the 
National Park Services to oversee the creation of an Ice Age 
Floods National Geologic Trail, and the trail would be the 
first of its kind because of its extent over a four-State area 
in the Pacific Northwest.
    Some 12,000 to 17,000 years ago, at the end of the Ice Age, 
a series of cataclysmic floods swept across the Pacific 
Northwest. These epic floods fundamentally changed the 
geography and way of life in this region of the country. The 
coulees, buttes, boulder fields, lakes, ridges, gravel bars 
that they left behind still define the very unique landscape of 
the Northwest today.
    Scientific evidence has shown that, on a number of 
occasions between 12- and 17,000 years ago, many Pacific 
Northwest cities were under hundreds of feet of water. More 
than 500 cubic miles of water were blocked behind a glacial dam 
in a valley around the present-day Missoula, Montana. 
Periodically, that ice dam would fail, creating the greatest 
flooding ever known to science, sending water across four 
Northwest States. Scientists now believe that 500 cubic miles 
of water in Ancient Lake Missoula would drain in less than 48 
hours, sending water rushing across present-day Montana, Idaho, 
and Washington at speeds of more than 65 miles an hour.
    The impacts on the region have been breathtaking. High-
water marks can be seen from foothills outside of Missoula, 
Montana, identifying the ancient shoreline of Lake Missoula, 
and previously baffling water ripples mark the landscape 
throughout Idaho Panhandle and other regions of the Pacific 
Northwest. In Oregon, there is evidence of water collecting in 
the Willamette Valley, up as the flood waters trying to squeeze 
through relatively narrow Kalama Gap.
    In my State of Washington, we have benefited from this 
beautiful scenery, the geological utility of the features 
molded by some awesome powers of racing floodwaters. The 
rolling farmlands of eastern Washington are interrupted by 
house-sized boulders, and scientists know that they have been 
carried by these torrent waters of flooding that happened in 
various points in time, and that parts of the Columbia River 
Channel and the Grand Coulee Dam site were formed, as large 
part, due to this force of water moving through our State.
    The remnants of massive waterfall, which is now known as 
Dry Falls, in the State of Washington, serve as a present-day 
evidence of the 3-mile-wide 350-foot waterfall that was part of 
the old channel of the Columbia River. This would have made--
well, basically, this would have dwarfed the size of what we 
know right now of Niagara Falls.
    Mr. Chairman, these impacts are truly one of a kind and 
significant as it relates to science, geology, and the amazing 
history that happened. Creating a National Park Service Trail 
to recognize and interpret and celebrate how these floods were 
literally shaped and how they impacted the Northwest, I think, 
is an unparalleled educational resource for visitors across the 
country.
    I'm glad that, in February, the National Park Service 
Study, the Ice Age Floods-Study of Alternatives and 
Environmental Assessment seemed to arrive at the same 
conclusion. The study determined that the flood's regional 
interest exceeded the basic requirements as nationally 
significant resource and that the Ice Age Floods Trail was 
suitable for inclusion in the national park system and 
concluded that the geological-trail approach seemed to be very 
feasible.
    To that end, this legislation would authorize this most 
effective and efficient management alternative that was 
recommended and the creation of an Ice Age Floods National 
Geological Trail from Montana to the Pacific Ocean.
    Mr. Chairman, I think I'll submit the rest of my comments 
for the record, but just to say that the business, education, 
scientific community in the Northwest are very interested in 
the implementation of this concept, not just for the business 
and economic issues that are at hand, but because we think it's 
a great resource to use as an educational tool for many 
generations to come.
    Thank you for holding this hearing and including this on 
the docket.
    [The prepared statement of Senator Cantwell follows:]
Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington
    Thank you Chairman Thomas for holding this hearing today; I 
appreciate the opportunity to discuss the Ice Age Floods National 
Geologic Trail Designation Act. I also appreciate the opportunity to 
publicly thank the cosponsors of this legislation, including Senators 
Smith, Craig, Burns, and Murray. The distinguished list of Senators 
supporting the legislation represents a strong, bipartisan, regional 
consensus on the need to authorize this National Trail.
    I also want to thank Gary Kleinknecht (Cline-connect) for agreeing 
to testify in favor of this legislation. Gary and his colleagues at the 
Ice Age Floods Institute colleagues have played such an integral role 
in bringing attention to this issue, educating the public, and 
energizing the region around this idea. In many ways, the members of 
the Institute serve as the proteges of University of Washington 
professor J. Harlan Bretz and USGS geologist Joseph Pardee, who 
together formed and many times fought to make credible their hypothesis 
about the historic existence of the Ice Age Floods. We appreciate your 
work.
    Mr. Chairman, my legislation, S. 206, would authorize the National 
Parks Service to oversee the creation Ice Age Floods National Geologic 
Trail. The trail would be the first of its kind and extend over a four 
state area in the Pacific Northwest.
    Some 12,000 to 17,000 years ago, at the end of the last Ice Age, a 
series cataclysmic floods swept across the Pacific Northwest. These 
epic floods fundamentally changed the geography and way of life in my 
region of the country. The coulees, buttes, boulder fields, lakes, 
ridges and gravel bars they left behind still define the unique 
landscape of the Northwest today.
    Scientific evidence has shown that on a number of occasions between 
twelve and seventeen thousand years ago, many Pacific Northwest Cities 
were under hundreds of feet of water. As the Cordilleran Ice Sheet 
progressed south from Canada, more than 500 cubic miles of water were 
blocked behind a glacial dam in the valley in and around present day 
Missoula, Montana. Periodically that ice dam would fail--creating the 
greatest flooding event known to science--sending water ripping across 
four Northwest States. Scientists now believe the 500 cubic miles of 
water in Ancient Lake Missoula would drain in less than 48 hours--
sending water rushing across present day Montana, Idaho, Washington, 
and Oregon at speeds of more than 65 miles an hour.
    The impacts on the region have been breathtaking. High. water marks 
can be seen on the foothills outside Missoula, Montana--identifying the 
ancient shoreline of Lake Missoula. Previously baffling water ripple 
marks scoured by the awesome power of the floods mark the landscape 
throughout the Idaho Panhandle and the Pacific Northwest. In Oregon, 
there is evidence of water collecting in the Willamette Valley up as 
the flood waters trying to squeeze through the relatively narrow Kalama 
Gap.
    In my State of Washington, we have benefited from the beautiful 
scenery and geologic utility of the features molded by the awesome 
powers of the racing floodwaters. The rolling farmlands and channeled 
scablands of Eastern Washington are interrupted by seemingly 
inexplicable house-sized boulders that scientists now know were carried 
like pebbles and deposited by the torrents of water. Parts of the 
Columbia River-Channel and the site Grand Coulee Dam, the bookend of 
the Federal Columbia River Power System, were formed in large part due 
to the scouring forces of the water. Remnants of a massive water fall, 
now known as Dry Falls, serves as present day evidence of a three-mile 
wide 350 foot high waterfall that was part of the old channel of the 
Columbia River and would have made dwarfed the size and power of 
Niagara Falls.
    Mr. Chairman, these impacts are truly one of a kind and I think its 
appropriate and necessary for the federal government to play an 
appropriate coordinating role in working with public and private 
entities, including Tribal, State, and Local governments to 
appropriately recognize this amazing geologic history.
    Creating a National-Park Service trail to recognize, interpret, and 
celebrate how these floods literally shaped the face of the Northwest 
will provide an unparalleled educational resource for visitors from 
across the country. Better coordination will also spur economic 
development in local rural communities across Eastern and Central 
Washington.
    I am glad that the National Park Service in their February 2001 
study, ``Ice Age Floods-Study of Alternatives and Environmental 
Assessment,'' seemed to arrive at the same conclusions. The study 
determined that the floods region exceeded the basic requirements as a 
nationally significant resource, found the Ice Age Floods Trail 
suitable for inclusion into the National Parks System, and concluded 
the Geologic Trail-approach to be feasible.
    To that end, this legislation would authorize the most effective 
and efficient management alternative of that report--the creation of 
the Ice Age Floods National Geologic Trail from Montana to the Pacific 
Ocean.
    The 2001 Study noted that the National Parks Service does its best 
work when it collaborates on interpretation of resources with public 
and private entities throughout a given region--this legislation 
provides the authority NPS to play that role. My legislation would 
provide for an Interagency Technical Committee that would be the forum 
for collaboration between the NPS, federal agencies, private entities, 
civic organization landowners, and state, local, and tribal 
governments.
    This collaboration is important for the planning needed to 
appropriately interpret the geologic features across the trail. While 
Congress always reserves the right to provide additional funding in 
collaboration with the Trail collaborators, a modest half million 
dollars is authorized for the administration of the Geologic Trail 
through the National Parks Service.
    Despite the 2001 study being chock-full of reasons to authorize the 
creation of a federally designated Ice Age Floods National Geologic 
Trail, I understand that the Park Service will testify against the bill 
today. While I will be interested in exploring this issue during 
questioning, I look forward to working with the Administration to 
address these issues.
    I am proud to note that the federal government has an entire region 
ready and waiting to collaborate--in fact, the 2001 study noted the 
strong regional support for federal designation. To date, more than 30 
entities spanning state and local governments, Chambers of Commerce, 
and other civic and community organization support creation of the 
trail concept.
    Through this modest federal investment local, state, tribal, and 
private resources can be better leveraged and coordinated to tell the 
story of this one of a kind geologic story in the way that state and 
local communities best see fit. I look forward to the testimony that we 
will hear today from the Ice Age Floods Institute and the National Park 
Service and thank the subcommittee for the opportunity to share this 
legislation and important scientific story with you.

    Senator Thomas. Okay, thank you, Senator.
    Senator Alexander.

 STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thanks, Mr. Chairman, and thank you for 
holding the hearing.
    I'm here especially today to welcome my friend Mayor Tom 
Miller, of the city of Franklin, Tennessee, who's--who will be 
testifying during the hearing. And I'll have a statement to put 
in the record at the time, but I simply wanted to applaud him, 
call to the chairman's attention--the whole Senate's 
attention--the tremendous effort that the mayor and the city of 
Franklin are making to preserve the Franklin Battlefield.
    The Battle of Franklin, just before the Battle of 
Nashville, were two historic turning points in the Civil War. 
Six generals lost their lives in the Battle of Franklin, 9,000 
soldiers. Franklin was one of the most rapidly growing areas in 
our State. And so, we have a fight on our hands to try to be 
able to keep that, preserve the battlefield there in the city. 
Ultimately, others in the community are really doing an 
excellent job trying to balance the competing needs of proper 
development and proper reservation.
    So, I'm here today to welcome the mayor and to thank the 
chairman and Senator Frist and others for a resolution to study 
whether the battlefield should be included in the National Park 
Service.
    Thank you for your time.
    [The prepared statement of Senator Alexander follows:]
Prepared Statement of Hon. Lamar Alexander, U.S. Senator From Tennessee
    Thank you Chairman Thomas. First, let me welcome Mayor Tom Miller 
of the City of Franklin, Tennessee. Mayor Miller is an old friend of 
mine, and he has been integral to efforts at protecting and preserving 
the historic Franklin Battlefield. Mr. Mayor, I really appreciate your 
leadership in the historic preservation underway in Franklin, and I 
thank you for taking the time to travel to Washington to tell us a bit 
more about your efforts and plans.
    Tennessee is second only to Virginia in the number of battles, 
engagements, and skirmishes during the Civil War, and the Battle of 
Franklin was one of the most important battles of the war. On November 
30, 1864, Confederate soldiers led by Confederate General John Bell 
Hood charged the fortified Union line north of the Carnton Plantation 
in Franklin.
    The ensuing battle resulted in more than 9,000 casualties and 
decimated the Army of Tennessee, including six Confederate generals. 
Two weeks later, the Confederate defeat in the Battle of Nashville 
effectively ended the war in the western theater. The Battle of 
Franklin was truly a turning point in the War Between the States, and a 
critical moment in both Tennessee and U.S. History.
    The Franklin Battlefield was named this year as one of the ``10 
most endangered'' Civil War battlefields in the nation by the Civil War 
Preservation Trust, America's largest non-profit organization devoted 
to the preservation of our nation's endangered Civil War battlefields.
    Efforts to protect this vital piece of our history have gained 
momentum in recent years, particularly as the City of Franklin has 
wrestled with the challenges of rapid development and economic growth. 
This development has overrun some of the sites of the Battle of 
Franklin, and other sites are being encroached on. Mayor Miller, City 
Aldermen, and local and national groups have responded well. With Mayor 
Miller's leadership, the City of Franklin has pledged $2.5 million to 
acquire a piece of the battlefield near the Carnton Plantation. Local 
businesses and land owners have been supportive with money, land, and 
their time. I commend their efforts.
    I am proud to have cosponsored the Franklin National Battlefield 
Study Act with Senator Frist. The importance of the Franklin 
Battlefield and the local efforts in preservation merit study by the 
National Park Service, and the issues faced in Franklin will certainly 
have a bearing on future park feasibility studies. As more communities 
face municipal growth and prosperity, historic sites in Tennessee and 
other states will be in jeopardy.
    Franklin, Tennessee is already working to develop an appropriate 
balance between development and preservation, and I applaud the efforts 
of Mayor Miller and others in the community.

    Senator Thomas. Who won the battle?
    Senator Alexander. Who won the Battle of Franklin? Well, 
six Confederate generals were killed, so that gives you an idea 
of--the Confederates charged, and the Union won, as I remember 
the history.
    Senator Thomas. Thank you, sir. I appreciate it.
    Welcome to Deputy Director of the National Park Service, 
Mr. Murphy, if you will, please.

 STATEMENT OF DONALD W. MURPHY, DEPUTY DIRECTOR, NATIONAL PARK 
                            SERVICE

    Mr. Murphy. Thank you, Mr. Chairman, Senator Alexander, 
Senator Cantwell.
    Mr. Chairman, I would like my written testimony, which we 
have already provided for you, to be entered into the official 
record, if you will.
    Senator Thomas. It will be entered.
    Mr. Murphy. I'll be taking up each of these bills, in turn. 
I'll be starting my testimony on Walnut Canyon.
    The administration does not object to the enactment of S. 
556. We also believe that any funding requested be directed 
toward completing previously authorized studies. Currently, 30 
studies are in progress by the Department of the Interior, 
which hopes to complete and transmit 15 of these to Congress by 
2005.
    Additionally, if the committee moves forward with S. 556, 
we suggest that the bill be amended in section 4(e) to make the 
report to Congress due 18 months after funds are made 
available. Also, section 4 may need to be further amended to 
specify that the draft study be available for public comment, 
in accordance with the National Environmental Policy Act, and 
remove any potential violations of the recommendations clause, 
U.S. Constitution, article 2, section 3, by clarifying that any 
recommendations be made to Congress by the Secretaries would be 
discretionary, rather than mandatory. And, of course, we'll be 
happy to work with the committee and the U.S. Department of 
Justice to develop alternate language for these portions of the 
bill.
    Moving on to the Arizona Trail, the Department--that's bill 
S. 588--it's a bill to direct the Secretary of the Interior and 
the Secretary of Agriculture to jointly conduct a study on the 
feasibility of designating the Arizona Trail as a national 
scenic trail or a national historic trail. The Department 
supports S. 588, with an amendment regarding the appropriations 
language in the bill, and an amendment which would require the 
map described in subparagraph (a) to also be made available for 
public inspection in the appropriate offices of the U.S. Forest 
Service. However, while the Department supports the 
authorization of the study, we also believe that any funding 
requested should be directed toward completing previously 
authorized studies.
    And moving on to the Battle of Franklin, this, of course, 
is a bill authorizing a study for the suitability and 
feasibility of designating sites relating to the Battle of 
Franklin in Williamson County, Tennessee, as a unit of the 
National Park System and for other purposes. The Department 
supports S. 955, with an amendment that would conform the bill 
to other similar study bills. And, while the Department 
supports the authorization of the study, we would also ask that 
funding requested should be directed toward completing 
previously authorized studies.
    As stated earlier, S. 955 would authorize the Secretary to 
complete a study on the suitability and feasibility of 
designating these sites relating to the Battle of Franklin as a 
unit of the national park system.
    In its 1993 report, the Civil War Sites Advisory Commission 
identified the site of the 1864 Battle of Franklin as a Class A 
battlefield, representing a high level of military importance. 
The Commission reported that the site represents an area that 
had a decisive impact on military campaign and a direct impact 
on the course of the war. The Commission also reported that the 
Franklin Battlefield is currently a fragmented site, with very 
little historical integrity remaining from that period.
    We suggest one amendment in section 4 of the bill to have 
the study completed 3 years after funding is made available, 
rather than 3 years after enactment. This will make the bill 
consistent with other similar bills.
    And now, Mr. Chairman, the comments on designating the Ice 
Age Floods National Geologic Trail. The Department opposes S. 
206, in its current form, although we recognize the national 
significance of the geologic features of the Northwest caused 
by the Ice Age floods. We believe that we can enhance the 
interpretation of these features, as described later in the 
testimony, without establishing a new entity within the 
National Park Service or spending Federal funds on development 
of interpretive sites or land acquisition.
    Rather than establishing a new entity for the purpose of 
interpreting the Ice Age floods, we recommend amending S. 206 
to provide for expansion of interpretation of flood features at 
Lake Roosevelt National Recreation Area, an existing unit of 
the National Park System, located in the State of Washington, 
about midway along the route of the trail proposed by S. 206.
    As part of an enhanced interpretation program, the park 
could, for example, make available to park visitors information 
about other flood features in the four-State region covered by 
the proposed trail. The National Park Service is involved in 
two other efforts, both of them in Wisconsin, to preserve and 
interpret the landscapes resulting from the last advance of the 
continental glaciers. That's the Ice Age National Scientific 
Reserve and the Ice Age National Scenic Trail.
    The National Scientific Reserve, authorized in 1964, 
preserves outstanding features of the glacial landscape that 
are owned and managed by the Wisconsin Department of Natural 
Resources, under a cooperative agreement with the National Park 
Service, and is an affiliated area of the national park system.
    In addition to expanding interpretation at Lake Roosevelt, 
the National Park Service could devote resources from other 
existing programs to promoting education and interpretation of 
sites associated with the floods. For example, the National 
Park Service's Rivers, Trails, and Conservation Assistance 
Program could provide technical assistance to State and local 
entities that want to enhance interpretation of sites in their 
areas. In addition, other National Park Service units in the 
vicinity of the proposed trail, such as the new Lewis & Clark 
National Historic Park, which includes areas along the lower 
Columbia River, could be brought into the effort to promote 
interpretation of these flood features.
    We acknowledge that in 2001 a study team headed by the 
National Park Service, and composed of 70 representatives of a 
broad range of public and private entities, included a 2-year 
special-resource study of the Ice Age floods. The study did 
find that the flood features met criteria for national 
significance and suitability for addition to the National Park 
System, as Ms. Cantwell said, but we felt that the size, 
breadth, and multitude of ownership throughout the region make 
the area not feasible to consider for a traditional national 
park, monument, or designation.
    And, as stated earlier in my testimony, we are ready and 
willing to enter into agreements with partners, and to find 
ways to interpret this very significant geological event in the 
history of the world.
    Mr. Chairman, this concludes my testimony on these four 
bills. I'm prepared to take any questions the committee might 
have.
    [The prepared statement of Mr. Murphy follows:]
Prepared Statement of Donald W. Murphy, Deputy Director, National Park 
                  Service, Department of the Interior
                                 S. 206
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 206, a bill to designate the 
Ice Age Floods National Geologic Trail.
    The Department opposes S. 206 in its current form. Although we 
recognize the national significance of the geologic features in the 
Northwest caused by the Ice Age Floods, we believe that we can enhance 
the interpretation of these features, as described later in this 
testimony, without establishing a new entity within the National Park 
Service or spending Federal funds on development of interpretive sites 
or land acquisition. Devoting limited National Park Service funds to 
those purposes would detract from the Administration's priority of 
reducing the deferred maintenance backlog in existing units of the 
National Park System.
    The cataclysmic floods that occurred 12,000 to 17,000 years ago, at 
the end of the last ice age, were some of the largest ever documented 
by geologists. These floods, which were caused by the ice and water 
bursting through ice dams at Glacial Lake Missoula, left a lasting mark 
of geologic features on the landscape of parts of Montana, Idaho, 
Washington, and Oregon, and have affected the pattern of human 
settlement and development in parts of the Northwest.
    In 2001, a study team headed by the National Park Service and 
composed of 70 representatives of a broad range of public and private 
entities, concluded a two-year special resource study of the Ice Age 
floods. The study found that the floods features met the criteria for 
national significance and suitability for addition to the National Park 
System, but that the size, breadth, and multitude of ownerships 
throughout the study region make the area not feasible to consider for 
a traditional national park, monument, or similar designation. However, 
the study found that it is feasible to interpret the floods story 
across the affected areas. It evaluated four management alternatives 
that would each provide a collaborative and coordinated approach for 
the interpretation of the Ice Age floods story to the public. The 
study's preferred alternative called for Congressional designation of 
the floods pathways as a national geologic trail and authorization of 
National Park Service management of the trail in coordination with 
public and private entities.
    S. 206 would largely implement the study's preferred alternative. 
It would designate the Ice Age Floods National Geologic Trail, to be 
managed by the National Park Service, along floods pathways. The trail 
would be an auto tour route along public roads and highways linking 
floods features starting in the vicinity of Missoula in western 
Montana, going across northern Idaho, through eastern and southern 
sections of Washington, across northern Oregon in the vicinity of the 
Willamette Valley and the Columbia River, to the Pacific Ocean.
    While the Department believes that the proposed auto tour route 
highlighting floods features is a viable concept, we do not support 
establishing a new program within the National Park Service to lead 
this effort. Although the study called for sharing the cost of the Ice 
Age Floods National Geologic Trail among a variety of public and 
private sources, it estimated that under the alternative that S. 206 
would implement, the role that National Park Service would play would 
cost about $500,000 per year in operating expenses. The study also 
suggested that the share of capital development costs for the trail 
from all Federal sources might run between $8 million and $12 million 
over a period of several years.
    The study assumed that State and local governments would pay for 
parcels of land needed for improvements such as roadside pullouts and 
wayside exhibits where rights-of-way proved inadequate, so it did not 
suggest a Federal contribution toward land acquisition. However, S. 206 
would authorize the National Park Service to acquire up to 25 acres of 
land, which would entail additional Federal expenditures.
    Rather than establishing a new entity for the purpose of 
interpreting the Ice Age Floods, we recommend amending S. 206 to 
provide for expansion of interpretation of floods features at Lake 
Roosevelt National Recreation Area, an existing unit of the National 
Park System located in the State of Washington about midway along the 
route of the trail proposed by S. 206. Lake Roosevelt National 
Recreation Area contains the lake formed by Grand Coulee Dam, built 
across one of the coulees formed by the Ice Age Floods. The floods are 
the primary natural history interpretive theme at Lake Roosevelt. The 
recreation area also assists Washington State Parks in interpretation 
at Dry Falls State Park, one of the most significant floods features 
along the proposed trail. As part of an enhanced interpretation 
program, the park could, for example, make available to park visitors 
information about other floods features in the four-state region 
covered by the proposed trail.
    The National Park Service is involved in two other efforts, both in 
Wisconsin, to preserve and interpret the landscapes resulting from the 
last advance of continental glaciers the Ice Age National Scientific 
Reserve and the Ice Age National Scenic Trail. The national scientific 
reserve, authorized in 1964, preserves outstanding features of the 
glacial landscape that are owned and managed by the Wisconsin 
Department of Natural Resources under a cooperative agreement with the 
National Park Service and is an affiliated area of the National Park 
System. The Ice Age National Scenic Trail in Wisconsin, authorized in 
1980 as a part of the National Trails System, is a 1,200-mile hiking 
trail that traces glacial landscape features left by the advance and 
melting away of the last continental glaciers during the Wisconsin 
Glaciation approximately 15,000 years ago. This scenic trail is a 
hiking trail and differs from auto tour route that is proposed to be 
established in this bill as the Ice Age Floods National Geologic Trail.
    In addition to expanding interpretation at Lake Roosevelt, the 
National Park Service could devote resources from other existing 
programs to promoting education and interpretation of sites associated 
with the floods. For example, the National Park Service's Rivers, 
Trails, and Conservation Assistance program could provide technical 
assistance to State and local entities that want to enhance 
interpretation of sites in their areas. And, the National Park 
Service's National Register of Historic Places program could develop 
Ice Age Floods as one of its ``Discover Our Shared Heritage'' on-line 
travel itineraries. In addition, other National Park Service units in 
the vicinity of the proposed trail, such as the new Lewis and Clark 
National Historical Park which includes areas along the lower Columbia 
River, could be brought into the effort to promote interpretation of 
floods features.
    As the National Park Service's study suggested, interpretation of 
the floods should involve a collaborative and coordinated approach 
involving a broad range of public and private entities. One of the 
management alternatives considered by the study was having the state 
legislatures of Montana, Idaho, Washington, and Oregon designate 
representatives to a four-state commission that would promote the 
coordinated interpretation of the floods story at the state and local 
level. We think that is an option that merits a second look. In 
addition, with or without a state-sponsored commission, tourist 
organizations could form a four-state consortium to generate interest 
in visiting these sites. The Ice Age Floods Institute, a non-profit 
scientific organization devoted to increasing understanding of the 
story of the Ice Age Floods, has played and will continue to play a 
large role in promoting public education about the floods.
    We would be happy to work with the committee to develop the 
appropriate language for amending S. 206 to provide for expanded 
interpretation of Ice Age Floods features by Lake Roosevelt National 
Recreation Area rather than designation of a new national entity and 
establishment of a new program managed by the National Park Service.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions that you or other members of the committee may 
have.
                                 S. 556
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Administration's 
views on S. 556, a bill to direct the Secretary of the Interior and the 
Secretary of Agriculture to jointly conduct a study of certain lands 
adjacent to the Walnut Canyon National Monument in the State of 
Arizona.
    The Administration does not object to the enactment of S. 556. We 
also believe that any funding requested should be directed toward 
completing previously authorized studies. Currently, 30 studies are in 
progress by the Department of the Interior, which hopes to complete and 
transmit 15 to Congress by the end of 2005
    S. 556 directs the Secretary of the Interior and the Secretary of 
Agriculture, utilizing a third party consultant, to jointly conduct a 
study of approximately 31,000 acres surrounding Walnut Canyon National 
Monument (monument). The study would evaluate how best to manage 
federal and State lands adjacent to the monument in the long term in 
order to protect the natural, cultural, and recreational values 
important to this area of Arizona. The bill directs the Secretaries, as 
well as local land managers, the Flagstaff City Council and Coconino 
County Board of Supervisors to review and comment on the draft study. 
The bill requires a report that includes findings, conclusions and 
recommendations for future management of the study area to be 
transmitted to Congress no later than 18 months after enactment. We 
estimate the total cost of the study to be approximately $300,000, to 
be divided between the National Park Service and the U.S. Forest 
Service.
    Walnut Canyon National Monument was established on November 30, 
1915, by Presidential Proclamation with the specific purpose of 
preserving the prehistoric ruins of ancient cliff dwellings. The 
monument was expanded in 1938 and 1996 and now occupies approximately 
3,600 acres. The purposes for which the area was originally established 
have expanded to include protection of natural and cultural resources 
that are known to be significant to contemporary native tribes and the 
ecological communities and geological resources that make the canyon an 
outstanding scenic resource. The monument and the surrounding lands of 
the Coconino National Forest provide a significant natural sanctuary 
and greenbelt surrounding the city of Flagstaff.
    The National Park Service released a Draft General Management Plan 
(GMP) for Walnut Canyon National Monument for public comment in 2003. 
Many of the issues identified for resolution in S. 556 were also 
identified as needs in the Draft GMP. The plan is being revised to 
address comments about boundary issues and is expected to be finalized 
after completion of consultations with the Fish and Wildlife Service in 
the next several months. The archeological and prehistoric resources 
preserved in the monument are nearly pristine, and provide not only 
scientific opportunities but also challenges for preservation.
    For several years, local communities adjacent to the monument have 
debated how the land surrounding the monument would be best protected 
from future development. A number of years ago, the Coconino County 
Board and the Flagstaff City Council passed resolutions concluding that 
the preferred method to determine what is best for the land surrounding 
the monument is by having a federal study conducted. Included within 
the lands to be studied that surround the monument are approximately 
2,000 acres of State trust lands. We should note that it is our 
understanding that Arizona law prohibits state lands to be donated and 
that the Arizona Supreme Court has determined that the Arizona 
Constitution prohibits the disposal of certain state land except 
through auction to the highest and best bidder. Should the study's 
conclusions involve these types of actions concerning state lands, we 
would have to await a determination on how the citizens of Arizona and 
their representatives would recommend proceeding.
    We understand the concern that National Forest System (NFS) lands 
between the Monument and the City of Flagstaff might eventually be sold 
or exchanged; allowing urban development to creep closer to the Walnut 
Canyon watershed, originally prompted local support for this proposed 
study. The proposed study area is within two miles of the campus of 
Northern Arizona University and is a prime recreation area for 
students, as well as for Flagstaff area residents. In fact, the area is 
the second most-used area for recreation in the greater Flagstaff area, 
behind only the San Francisco Peaks.
    The Forest Service has developed a Land Resource Management Plan 
for the Coconino National Forest, amended in early 2003, that closed 
the area to motorized access and removed the land encircling the 
Monument from consideration for sale or exchange. The Flagstaff-area 
Regional Land Use and Transportation Plan (RLUTP), approved by the 
Flagstaff City Council and the Coconino County Board of Supervisors in 
2002, limits growth and does not allow for development within the study 
area. RLUTP specifically precludes two key sections of Arizona State 
Trust land between Flagstaff and the Monument as suitable for 
development. Those lands are identified in the plan for open space and 
greenways. These plans would be an important source of information to 
be considered during the study process.
    If the Committee moves forward with S. 556, we suggest that the 
bill be amended in section 4(e) to make the report to Congress due 18 
months after funds are made available. Also Section 4 may need to be 
further amended to specify that the draft study be available for public 
comment, in accordance with the National Environmental Policy Act, and 
to remove any potential violations of the Recommendations Clause, U.S. 
Const. art. II, sec. 3, by clarifying that any recommendations to be 
made to Congress by the Secretaries would be discretionary rather than 
mandatory. We will be happy to work with the Committee and the U.S. 
Department of Justice to develop alternate language for these portions 
of the bill.
    Thank you for the opportunity to present the Administration's views 
on this bill. That completes my remarks and I will be happy to answer 
any questions you may have.
                                 S. 588
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 588, a bill to direct the Secretary of the 
Interior and the Secretary of Agriculture to jointly conduct a study on 
the feasibility of designating the Arizona Trail as a national scenic 
trail or a national historic trail.
    The Department supports S. 588 with an amendment regarding the 
appropriations language in the bill and an amendment which would 
require the map described in subparagraph (A) to also be made available 
for public inspection in the appropriate offices of the U.S. Forest 
Service. However, while the Department supports the authorization of 
this study, we also believe that any funding requested should be 
directed toward completing previously authorized studies. Currently, 30 
studies are in progress, and we hope to complete and transmit 15 to 
Congress by the end of 2005. We estimate the total cost of this study 
to be approximately $300,000, and recommend that paragraph D on Page 3 
of the bill be amended to change the authorization to $300,000 with 
$150,000 made available to each Secretary.
    S. 588 directs the Secretary of the Interior and the Secretary of 
Agriculture to jointly conduct a study of the Arizona Trail which 
connects Arizona's north and south borders across mountain ranges and 
deserts for approximately 790 miles. The study would determine whether 
or not the trail would be eligible to be designated as a scenic or 
historic trail, joining the current system of 24 nationally designated 
scenic and historic trails created by the National Trails System Act of 
1968.
    These trails provide for outdoor recreation needs, promote the 
enjoyment, appreciation, and preservation of open-air, outdoor areas 
and historic resources, and encourage public access and citizen 
involvement. If the feasibility study recommends designation as a 
national scenic or historic trail, an act of Congress adding the trail 
to the National Trails System may follow. If the Arizona Trail were 
recommended for national trail designation, the study would also 
recommend the most effective and efficient management of the trail.
    National scenic trails are continuous, primarily non-motorized 
routes of outstanding recreational opportunity. Although the National 
Trails System Act does not include specific criteria for assessing 
proposed national scenic trails, we suggest that the study team use the 
following five criteria in making their determination:
    Significance: There should be nationally significant cultural, 
historic, natural, recreational, or scenic features along the trail.
    Length: The trail should be at least 100 miles long and continuous.
    Accessibility: The trail should complement other trails and 
recreation areas, and provide access where possible to nearby urban 
areas.
    Desirability: There should be an anticipated need for the trail, 
and it should be capable of attracting visitors from across the nation. 
It should offer an outstanding scenic and enjoyable outdoor 
recreational experience. There should be extensive local and regional 
support for the project.
    Trail Use: National Scenic Trails should be designated for hiking 
and other compatible non-motorized uses.
    National historic trails commemorate historic and prehistoric 
routes of travel that are of significance to the entire Nation. There 
are three criteria that must be met to be recommended as a national 
historic trail. The trail or route must be established by an historic 
use or determined to be historically significant as a result of that 
use; it must be of national significance with respect to any of several 
broad facets of American history and have had a far-reaching effect on 
broad patterns of American culture; and it must have significant 
potential for public recreational use or historic interest based on 
historic interpretation and appreciation. From what we know of its 
characteristics, the Arizona Trail is more likely to meet the criteria 
for a scenic trail rather than an historic trail.
    If designated by Congress either as an historic or scenic trail, we 
suggest that an independent non-profit trail partner organization be 
created to partner with the federal agency chosen to administer the 
trail.
    The Arizona Trail was conceived in 1985 as a continuous, 790-mile 
non-motorized trail from Mexico to Utah. Approximately 85% of the trail 
crosses federal land, 10% crosses State lands, and the remainder of the 
trail crosses private, municipal or county lands. The Trail was 
established as a primitive long-distance hiking, horseback, and 
mountain biking trail that links all of Arizona's major physiographic 
zones (the mountains, canyons, deserts, forests, historic sites, and 
mesas) to local communities and Arizona's major metropolitan areas. The 
Arizona Trail's significance is found in the diversity of resources, 
landscapes and recreational opportunities that it represents.
    In 1993, the U.S. Forest Service, National Park Service, Bureau of 
Land Management, and Arizona State Parks developed a cooperative 
agreement to work together to develop this non-motorized trail. Since 
then more than 710 miles of trail have been opened to the public, maps 
and trail resource information have been developed, and routine trail 
maintenance has been carried out, while efforts continue to open the 
remaining 80 miles of trail. In 1994, the non-profit Arizona Trail 
Association (ATA) was founded ``to coordinate the planning, 
development, management, and promotion of the Arizona Trail for the 
recreational and educational experiences of non-motorized trail 
users.''
    The ATA has worked on a variety of issues and serves as the focal 
point for trail advocacy, preservation, planning and development. ATA 
volunteers do trail maintenance, fund-raising and planning. In all of 
their efforts, they work closely with landowners and local governments 
to assure that private property owners are aware of trail activities, 
and trail users respect property rights. The ATA has quickly proven to 
be a vibrant, creative, resourceful, and dynamic group of 500 members 
coordinating more than 40,000 hours of volunteer labor per year, in 
recent years.
    An important characteristic of all National Trails is the 
partnerships they generate. The Arizona Trail already has strong 
regional, state and local advocates, all of whom have worked hard at 
creating and maintaining a trail featuring the incredible natural and 
cultural diversity of the State of Arizona. The ATA has worked hard to 
raise funds and involve local communities, governments and businesses 
as they have worked to develop the trail.
    With all these efforts already underway, we believe that conducting 
a feasibility study for national designation is a next, logical step in 
the management and protection of this important resource corridor 
across Arizona. Although limited to one State, the Arizona Trail has 
already proven its recreational value to the nation.
    Thank you again for the opportunity to present the Department's 
views on S. 588. That completes my remarks and I would be happy to 
answer any questions you may have.
                                 S. 955
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 955, a bill to authorize the 
Secretary of the Interior (Secretary) to study the suitability and 
feasibility of designating sites relating to the Battle of Franklin in 
Williamson County, Tennessee, as a unit of the National Park System, 
and for other purposes.
    The Department supports S. 955 with an amendment that would conform 
the bill to other, similar study bills. While the Department supports 
the authorization of this study, we also believe that any funding 
requested should be directed toward completing previously authorized 
studies. Currently, 30 studies are in progress, and we hope to complete 
and transmit 15 to Congress by the end of 2005. We estimate the total 
cost of this study to be $250,000.
    S. 955 would authorize the Secretary to complete a study on the 
suitability and feasibility of designating sites relating to the Battle 
of Franklin as a unit of the National Park System. The Battle of 
Franklin on November 30, 1864, was a pivotal turning point of the Civil 
War.
    After the fall of Atlanta in the summer of 1864, General John Bell 
Hood, commander of the Confederate Army of Tennessee, attempted to draw 
Union General William Tecumseh Sherman northward by threatening the 
Union supply line to Chattanooga. Hood sought to move the war out of 
Georgia in an effort to reclaim lost Confederate territory, most 
importantly Nashville. Sherman followed Hood for only a short time, 
deciding to turn his attention back towards Georgia where he would soon 
embark on his ``March to the Sea.'' In his stead, Sherman detached 
George H. Thomas and the Army of the Cumberland to protect Tennessee 
against Hood's advance.
    In November 1864, Hood pressed forward into Tennessee and 
confronted a Union force under the command of Major General John M. 
Schofield at Spring Hill. After several skirmishes there Hood 
immediately followed Schofield to the small town of Franklin, which had 
been a Federal military post since the fall of Nashville in early 1862. 
At Franklin, Schofield positioned most of his 28,000 men behind 
extensive breastworks covering more than two miles of mostly open 
fields. Late in the afternoon on November 30, Hood, with an army of 
18,000, hastily ordered a frontal assault against the well-positioned 
Union forces. After five hours of fierce fighting, much of it after 
dark, the Union army soundly defeated Hood's army which suffered 6,261 
casualties, including the loss of 12 generals and 54 regimental 
commanders. Among those killed was General Patrick Cleburne, considered 
by many historians to be the Confederacy's top battlefield commander. 
The Union's casualties numbered 2,326. With his army largely intact, 
Schofield ordered a nighttime withdrawal of Union forces to Nashville.
    Although the Battle of Franklin was a major setback for the 
Confederates, Hood wasted little time, advancing his remaining forces 
to Nashville where on December 15 and 16, 1864, the Union Army of the 
Cumberland under Thomas swept Hood's army from the field, essentially 
putting an end to the war in Tennessee.
    In its 1993 report, the Civil War Sites Advisory Commission 
identified the site of the 1864 Battle of Franklin as a ``Class A'' 
battlefield, representing a high level of military importance. The 
commission reported that the site represents an area that had a 
decisive impact on a military campaign and a direct impact on the 
course of the war. The commission also reported that the Franklin 
battlefield is currently a fragmented site with very little historical 
integrity remaining from the battle period.
    There are many sites in and around the city of Franklin and nearby 
areas in Tennessee that have an association with the battle. Perhaps 
most prominent among these are the many buildings that served as field 
hospitals to treat the wounded and dying such as the Carter House, 
which served as the Union army headquarters during the battle and was 
later used as a field hospital. The house and outbuildings were 
purchased by the State of Tennessee in 1951, opened to the public in 
1953, and is a Registered Historic Landmark. The scars of war are 
visibly apparent as the buildings still show more than a thousand 
bullet holes from the battle.
    We suggest one amendment in section 4 of the bill to have the study 
completed three years after funding is made available, rather than 
three years after enactment. This will make the bill consistent with 
other similar study bills.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.

    Senator Thomas. Okay, thank you very much. Appreciate that.
    A couple of questions. You mentioned two or three 
previously authorized studies. Are they ongoing? How long does 
a study take? Why aren't they completed?
    Mr. Murphy. Previously authorized studies--I mentioned in 
the bills that there were some previously authorized studies, 
and some of them have been funded, and some of them haven't, 
and that was why I was stating in my testimony, at the 
beginning--we are asking that if funds are made available, that 
funding be done in a priority way that we can complete some of 
the studies that are done. Each of these studies average 
anywhere from $250,000 to $300,000 to complete, and there is 
not all--there have not always been funds available to--we've 
gotten the authorization to go ahead with these studies, but 
appropriations have not always followed. And that's what I was 
referring to.
    Senator Thomas. I see. So, they are authorized to be 
funded, but have not been funded.
    Mr. Murphy. That's correct.
    Senator Thomas. I see. I suppose it makes a difference 
which study it is, but how long, generally, does it take to 
make a study of these kinds?
    Mr. Murphy. It usually takes anywhere from 2 to 3 years, 
and, on average, costs $300,000. And that's on average. Some 
studies take a lot less time, because there's already pre-work 
that's been done. And we build upon other studies and other 
information that's available; but, on average, it takes about 3 
years.
    Senator Thomas. I see. With regard to S. 206, the Ice Age, 
does the Park Service currently operate any interpretive 
services associated with this proposed trail?
    Mr. Murphy. As I said earlier, at Lake Roosevelt there is 
some interpretive information on the flood. And, of course, I 
mentioned the two sites in Wisconsin that we work on, as well. 
So, there are three areas, and we look to expand those, as 
well, and that's why we ask that the bill could be amended to 
allow for that expansion of interpretive efforts that are 
already underway.
    Senator Thomas. I see, okay. In S. 556, Walnut Canyon, is 
the primary purpose to identify lands to prevent encroachment, 
or do you anticipate finding additional resources worthy of 
protection?
    Mr. Murphy. Well, I think it's probably a little bit of 
both. I think that--and the study will identify that. I don't 
think it's primarily to do either of those things, but both of 
those would be components of the studies, and, depending upon 
what the study finds--for example, if it finds that the 
existing Walnut Canyon is in danger from encroachment, that 
would be one of the things that would be included to justify, 
perhaps, expanding the boundaries or somehow better protecting 
the existing Walnut Canyon boundaries.
    Senator Thomas. I see. I'm sure there are different 
situations. Some of us are a little concerned about continued 
expansion. We need to get up a situation where we have a little 
exchange so that we don't have a net gain, continuously, of 
Federal lands in a lot of these----
    Mr. Murphy. I think we would agree with that, and that's 
why the study's important to identify those things. And I don't 
think there's any prejudgment about expansion here at all.
    Senator Thomas. This Arizona Trail study, how many other 
trails are there that the National Park Service has been asked 
to study? It seems like we hear about the trail thing an awful 
lot, and I'm sure they're valuable, but how many units are we 
going to be looking at? Do you have any idea?
    Mr. Murphy. I can certainly find that information out for 
you. I have, in my notes here, that we're studying at least 
three other trails right now, but we can provide, for the 
record, the exact number.
    Senator Thomas. You know, there's merit in all these 
things. I just think we have to begin to set some priorities, 
in terms of how much activity and operations the Park Service 
can undertake.
    Civil War sites, same thing, seems like, and there's tons 
of Civil War sites. And I know they're all very valuable. Do 
you have any idea how many Civil War sites are set aside for 
Federal protection?
    Mr. Murphy. Yes, I think I have it somewhere here in my 
notes, if--because we have several battle--or Civil War sites 
across the United States. I'll be happy to provide that for the 
record, as well.
    Senator Thomas. I wish you would. I think you'll find 
there's more than several, whatever ``several'' means, but 
it's--and that's great, but we're going to have to start 
setting some priorities on all these things, and so on. So, 
okay, thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. Thank you, Mr. 
Murphy, for your testimony.
    I just want to see if I can understand, from your testimony 
today, the difference between the original 2001 analysis of 
what should be done, and alternatives, and what you're 
recommending today.
    Mr. Murphy. Right.
    Senator Cantwell. So, could you tell me the difference 
between--for the previous study recommendations?
    Mr. Murphy. Well, I think what the previous study 
recommended, and what I stated in my testimony, is that the 
study certainly found that--the geologic features that you so 
eloquently described, and that the study described, as well--
are certainly significant and are the kind of resources that 
you typically see in the National Park Service and in the 
system. And so, the study found that they're the kind of thing 
that could certainly be included, but, because of the--again, 
because of the breadth of the area that's involved, and how 
spread out it is, and the noncontiguous nature of some of the 
areas, we simply felt, after considering what the study said, 
that perhaps it would be better to use existing units of the 
National Park Service to interpret that geologic occurrence, 
and to interpret what happened there, without creating another 
unit of the National Park System, that it would be far more 
cost effective, that we could still provide the education and 
interpretive information within existing units. I described 
Lewis & Clark, for example, the new park along the Columbia 
River, as well as Lake Roosevelt and the efforts that are 
underway in Wisconsin. And with an expansion of those, I think 
we--the National Park Service sincerely feels that we can still 
tell that story very well without creating another unit.
    Senator Cantwell. So, in that regard, you're saying, then, 
use a couple of designations that are already there in a couple 
of places.
    Mr. Murphy. That's correct. Use the existing national 
parks, like Lake Roosevelt, like Lewis & Clark, expand the 
interpretive efforts there, use our Rivers and Trails 
assistance programs to work with State and local governments to 
provide the technical assistance that would help them also 
develop other interpretive and educational programs. It's a 
really important service that the National Park Service 
provides. We do it all over the Nation. And local communities 
find it very helpful. We assist in finding grants, we assist in 
finding educational and interpretive materials, and give 
guidance on how to develop these programs; and we just feel 
that would be a much more cost-effective way of approaching 
this, and still telling the same story, rather than, as I said, 
creating another unit in the National Park System.
    Senator Cantwell. So, that would be a different 
recommendation than the 2001 alternatives that were discussed. 
I think what I'm hearing you say is, use existing resources 
that are already there. So, for example, in the interpretive 
center that--part of the Lewis & Clark Trail in Idaho--you'd 
have something there that would say something about the Ice Age 
floods, and maybe at Lake Roosevelt, you'd have something that 
would say something about the Ice Age floods. Those are 
designations, and, in some cases, may even be areas where the 
geological significance of the Ice Age flood aren't even most 
apparent, or most interesting.
    I'm trying to understand whether you oppose the concept of 
a trail that designates the Ice Age Flood Trail, and the path 
that it took, and the great significant markers of that, 
obviously, interpreted by science and geologists, about what 
the most interesting geological features of that flood activity 
were. Are you saying that concept, juxtaposed with what was 
originally recommended in 2001, is not a concept today, that--
let's just put some markers at these various spots--which, 
again, may or may not even be contiguous to telling the story.
    Mr. Murphy. Yes.
    Senator Cantwell. And, certainly, those sites are already 
telling a different story.
    Mr. Murphy. Right.
    Senator Cantwell. To me, then, you wouldn't really have an 
Ice Age Flood Trail; you'd have some data about the Ice Age 
activity, at a couple of different sites. And I don't even know 
if you're recommending, today, like, how many of those sites 
would you want--you mentioned two. I don't know if you're 
saying there are more, or----
    Mr. Murphy. Well, there certainly could be more, and, as I 
was saying, working with our Rivers and Trails Assistance 
Program, you could certainly add more and work with local 
communities to effect the same outcome of providing the 
interpretation and the education in those significant areas. 
But what my testimony is really focusing on is whether or not 
we should add another unit to the National Park System to tell 
this extremely important story, or whether or not there are 
other means to tell it. And my testimony, and the position of 
the Department is, is that we feel that we can certainly tell 
this story, but not support adding another unit to the National 
Park System. That's really the crux of the matter.
    Senator Cantwell. Am I out of time, Mr. Chairman?
    Senator Thomas. Go ahead.
    Senator Cantwell. Thank you, Mr. Chairman.
    I guess I'm a little surprised. I want to get to where the 
issues are, because, in the 2001 study, the executive summary 
said, ``However, it is feasible to interpret the flood story 
along the flood pathway across Montana, Idaho, Washington, and 
Oregon, provided that there is some degree of cooperation, and 
that the entities within those states participate.'' So, that 
was the feasibility recommendation.
    I guess I look at the Oregon National Historic Trail as a 
multi-State reasonable example of collaboration. Are we talking 
about something similar to that, or are we saying, now, we're 
going to wait?
    Mr. Murphy. I don't at all want to give the impression that 
this is--the testimony relates to not thinking that these 
entities shouldn't cooperate for the story, but I'm trying to 
be specific--my testimony really does relate to whether or not, 
then, the National Park Service should be the responsible 
entity, in terms of management and operation of that trail, and 
whether or not it should be--become another unit of the 
National Park System. And the testimony is, is that we believe 
we can get that end, that was described in the 2001 feasibility 
study, without it becoming a unit of the National Park System. 
And I just gave some examples of how that happened. There are 
others, and there are other ways that the State and local 
governments across the States and across other local 
jurisdictions can cooperate to effect this trail without it 
becoming a unit of the National Park System.
    Senator Cantwell. But would it be a trail--is my question?
    Mr. Murphy. Well, it certainly could be, but it doesn't 
have to be a unit of the National Park System. That's the crux 
of our position in the Department.
    Senator Cantwell. Right, and I want to distinguish, since 
we are talking about four States, that the significance of it 
is that's a trail.
    Mr. Murphy. Yes, I understand.
    Senator Cantwell. Thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    Senator Alexander.
    Senator Alexander. No questions.
    Senator Thomas. No questions?
    Thank you, Mr. Murphy. Appreciate it. We'll be looking 
forward to talking to you on these.
    Mr. Murphy. Thank you, Mr. Chairman.
    Senator Thomas. Now let's invite our panel No. 2 to come 
up, please: Elizabeth Archuleta, chairman, Coconino County 
Board of Supervisors, Flagstaff, Arizona--probably didn't 
pronounce that properly; Mr. Tom Miller, mayor of the city of 
Franklin, Tennessee; and Mr. Gary Kleinknecht, president, Ice 
Age Floods Institute, from Washington State; and Mr. Larry 
Snead, executive director, Arizona Trail Association.
    Welcome, to each of you. We'll just go by the way you're 
listed on the panel here. And I don't know whether they have 
the little thing turned on, but we'll try and hold your 
statements to 5 minutes, if you can, please. And, if they're 
longer than that, we'll put your complete statements in the 
record.
    Ms. Archuleta.

  STATEMENT OF ELIZABETH ARCHULETA, CHAIRMAN, COCONINO COUNTY 
              BOARD OF SUPERVISORS, FLAGSTAFF, AZ

    Ms. Archuleta. Yes, thank you, Mr. Chairman.
    Thank you, Mr. Chairman and members of the National Parks 
Subcommittee. On behalf of Coconino County and the Flagstaff 
community, thank you for the opportunity to speak to you on the 
future of Walnut Canyon.
    I would also like to extend our gratitude to our Arizona 
Senators for their continued energy and invaluable support of 
the Walnut Canyon Study Act of 2005. Specifically, we would 
like to thank Senator McCain for his efforts on behalf of this 
bill.
    Before your committee is a bill that would direct the 
Secretary of the Interior and the Secretary of Agriculture to 
jointly conduct a study of certain land adjacent to Walnut 
Canyon National Monument, to evaluate the significance of the 
public uses and resource values of the study area, and to make 
a recommendation for the future management of the study area. 
Private land within the study area will not be affected.
    The land referred to as a study area, as pictured in the 
map in your materials, is comprised of approximately 31,000 
acres, and includes Federal land, Arizona State land, private 
land, which, again, will not be affected, and the Walnut Canyon 
National Monument.
    Land within Walnut Canyon National Monument is managed by 
the National Park Service. All other non-private land within 
the study area is managed by the National Forest Service or the 
Arizona State Land Department.
    The study area surrounding Walnut Canyon contains important 
natural habitats, abundant and diverse flora and fauna, and 
truly unique archeological, topographical, scenic, and, in many 
ways, sacred grounds full of tradition and culture. The 
distribution, diversity, and location of historic sites are 
unique, and include the only cliff-dwelling architecture of the 
Northern Sinagua. Many contemporary tribes look at this area as 
the home of their ancestors, and want to see it protected.
    The natural and cultural resources within the monument are 
known to be significant to American Indian tribes, as evidenced 
by oral history, continuing practices, and the archeological 
record. In addition, land under management by the National 
Forest Service enjoys many valued public uses. The area's 
unique characteristics also make it very desirable for 
development. The possible encroachment of development on land 
surrounding Walnut Canyon National Monument became a topic of 
significant community discussion in the fall of 2001. The 
issues of protection in perpetuity, management, and the 
appropriateness of current resources became focal points of the 
dialog.
    Due to widespread public interest and the diverse groups 
with vested interest in the land, there was extensive 
discussion to identify the most inclusive public-input process. 
On February 12, 2002, the Coconino County Board of Supervisors 
and the Flagstaff City Council conducted a joint meeting to 
discuss the issues.
    A ``staff group'' was then formed, including staff from the 
National Park Service, the U.S. Forest Service, the Arizona 
State Game and Fish Department, the city of Flagstaff, and 
Coconino County. Three public-input meetings were scheduled 
during the summer of 2002 to provide the public with agency 
introductions, resource information, known land uses, 
alternative land designations and options, an open house, and 
one-on-one public discussions. Upon conclusion of the meetings, 
there was a consensus that preservation within the study area 
was in the public interest, and current uses in the area should 
be retained. However, there was no agreement as to which 
agency's management objective was best qualified to address 
these concerns in order that they may best do that job. There 
was also no consensus on what the final boundary should look 
like.
    Concurrently, a phone survey was conducted, including 
residents of the city of Flagstaff, as well as unincorporated 
areas of Coconino County. The results were remarkably similar 
to those of the public-input meetings, with the vast majority 
of the participants being in favor of continued protection and 
continuation of current uses. In addition, hundreds of letters 
and calls from citizens were received for consideration. This 
public process, along with the team efforts of the staff group, 
resulted in a joint resolution by the Coconino County Board of 
Supervisors and the Flagstaff City Council calling for a study.
    On December 17, 2002, this is when the Board of Supervisors 
passed the resolution that is also in your packet. It was the 
public's desire, arrived at through an open process, with 
citizen, Federal, State, and local participation, to determine 
the best manner in which to protect these lands and resources 
in perpetuity while allowing the continuation of current 
resources and uses.
    Ultimately, upon completion of the land-management study by 
an experienced third-party consultant, we envision 
recommendations will be made collaboratively with the Secretary 
of the Interior, the Secretary of Agriculture, the Forest 
supervisor of the Coconino National Forest, the superintendent 
of the Flagstaff area national monuments, the Flagstaff City 
Council, and the Coconino County Board of Supervisors. The 
study will, one, evaluate the significance of the public values 
and resources of the study area, as pertaining to the 
management objectives of the Forest Service and National Park 
Service; two, identify opportunities for maintaining existing 
public uses; and, three, recommend a range of options for best 
managing and conserving the same.
    Good stewardship of our land is a public value. In this 
spirit, we implore you to authorize the Walnut Canyon Study Act 
of 2005.
    Mr. Chairman and distinguished members of the committee, on 
behalf of the Flagstaff community and Coconino County, thank 
you for your audience and for your consideration. And I would 
be happy to answer any questions you have.
    Senator Thomas. Thank you very much.
    Mr. Miller.

      STATEMENT OF TOM MILLER, MAYOR, CITY OF FRANKLIN, TN

    Mr. Miller. Mr. Chairman, Senator Alexander, Senator 
Cantwell, we thank you for the invitation to testify today 
about S. 955, which is a bill to direct the Secretary of the 
Interior to conduct a feasibility study regarding the inclusion 
of sites related to the Battle of Franklin in the National Park 
System.
    I'm Tom Miller, mayor of Franklin, Tennessee. Today, I will 
briefly share with you the significance of the Battle of 
Franklin, as well as the current situation and local support 
for this effort.
    The Battle of Franklin took place on November 30, 1864, 
forever changing our community's history and that of our 
Nation. Today, Americans are renewing their love of country 
while exploring our history and historic sites. Of the 384 
significant conflicts that occurred during the Civil War, only 
3.7 percent are considered principal battles. Franklin, while 
considered one of these principal battles, has a story that is 
lesser known than many others that it matches in significance, 
such as Gettysburg and Manassas. And, unfortunately, much of 
the battlefield, itself, has been lost to development.
    The community has been given an historic opportunity to 
take a step toward righting the wrong and reclaiming a 
significant piece of the battlefield. On the afternoon of 
November 30, General Hood, over the objection of at least three 
generals, ordered the Army of Tennessee to charge the well-
fortified Union lines directly in front of them. During the 
roughly 5 hours of the battle, mostly fought in the dark, six 
Confederate generals were lost, and over 9,000 casualties were 
recorded. A private who fought that day said of the battle, 
``The private soldier sleeps where he fell, piled in one mighty 
heap. I cannot tell the number of others killed and wounded. 
God only knows that. We'll all find out on the morning of the 
final Resurrection.'' By the end of November 30, the Army of 
Tennessee was no longer a cohesive fighting force.
    In addition to the crucial role the Battle of Franklin 
played in the demise of the Confederacy, several key 
interpretive themes are identified in the Franklin Battlefield 
Preservation Plan recently completed through a grant from the 
American Battlefield Protection Program. These themes include 
the level of carnage, the significant loss of generals, Hood's 
recklessness, and as non-combat-related themes, such as the 
community-as-hospital, occupied Franklin, and reconstruction.
    Franklin, as an urban battlefield, has a unique opportunity 
to interpret the story of not only the fighting itself, but of 
the aftermath and the impact on the community. Since this 
battle was the last major conflict of the war, in a very real 
sense, the reconciliation of our great Nation began in 
Franklin, Tennessee--North and South, blacks and whites, 
brothers and brothers.
    Several of the sites associated with the Battle of Franklin 
are part of the national--excuse me--of the Franklin 
Battlefield National Historic Landmark. This includes four 
noncontiguous properties associated with various aspects of the 
conduct of the Battle of Franklin--the sites, the Carter House, 
the Carnton Plantation, and the adjacent Confederate Cemetery, 
Winstead Hill, and Fort Granger. Additional information about 
these sites has been submitted for the record, including a 
map.*
---------------------------------------------------------------------------
    * The additional information and map have been retained in 
subcommittee files.
---------------------------------------------------------------------------
    Today, this battlefield has a chance for reclamation. 
Private citizens and the city of Franklin are working side by 
side to undertake one of the largest Civil War battlefield 
reclamation projects in the country. We intend to acquire the 
Country Club of Franklin property, consisting of 112 acres used 
as a golf course. It is the largest single remaining parcel of 
the battlefield. This property, which was the eastern flank of 
the battlefield, is adjacent to the Carnton Plantation and the 
Confederate Cemetery.
    The city of Franklin will purchase the golf course, with 
the intention of turning this property, and other already 
publicly owned properties, into a battlefield park. The country 
club property will serve as the starting point for visitors to 
the Battle of Franklin. From here, they will get an overview of 
the battle before visiting the many other important related 
sites.
    We are asking the National Park Service to undertake a 
feasibility study to consider the inclusion of these sites in 
the National Park System. We see opportunities for shared 
resources with Stones River National Battlefield Park, in 
Murfreesboro, Tennessee, and we offer a wealth of interpretive 
resources from our own community, such as the Battle of 
Franklin Historians, and the Civil War National Heritage Area, 
and Middle Tennessee State University. The city of Franklin has 
local support in both our community, as well as other areas 
around the county.
    Franklin's Charge, a nonprofit coalition of preservation-
related organizations, formed to secure half the funding, which 
will be matched by the city, for the purchase of the country 
club property. I'm very pleased to report today that the $5 
million purchase price of the property has been raised.
    Franklin's Charge includes representatives from the Save 
the Franklin Battlefield, Historic Carnton Plantation, the 
Heritage Foundation of Franklin and Williamson County, the 
Carter House, Williamson County Historical Society, the 
Williamson County African American Historical Society, the 
Harpeth River Watershed Association, Tennessee Land Trust, 
Tennessee Preservation Trust, and Tennessee Civil War National 
Heritage Area.
    S. 955 is timely and warranted, providing the opportunity 
to properly assess these resources and chart an appropriate 
course of action. Therefore, the city of Franklin is in full 
support of the legislation introduced by Senators Frist and 
Alexander, which has the opportunity to benefit the citizens of 
this great country for generations to come.
    Thank you for your consideration. I'm available to answer 
any questions you may have.
    Senator Thomas. Thank you very much.
    Mr. Kleinknecht.

 STATEMENT OF GARY KLEINKNECHT, PAST PRESIDENT, ICE AGE FLOODS 
                    INSTITUTE, KENNEWICK, WA

    Mr. Kleinknecht. Thank you, Mr. Chairman, for holding this 
hearing and for the opportunity to testify. I would also like 
to thank Senator Cantwell for sponsoring S. 206.
    I am Gary Kleinknecht, past president of the Lake Lewis 
Chapter of the Ice Age Floods Institute. I am currently 
president of the board of directors of the Institute. I am here 
today to speak in support of S. 206.
    My testimony will exceed the time limit today, so I would 
like to submit my entire statement for the record.
    Senator Thomas. It will be included.
    Mr. Kleinknecht. Thank you.
    I also have several letters and documents of support that I 
would like to submit as testimony, if I may.
    Senator Thomas. Fine.
    Mr. Kleinknecht. Thank you.
    About a century ago, a young high school teacher in 
Seattle, Washington, became fascinated with the geology of the 
State. He became so interested in the topic that he enrolled in 
the University of Chicago and earned a Ph.D. in geology. With 
his new career, he began a lifelong relationship with eastern 
Washington and the shrub-steppe of the Columbia Plateau. He 
spent summers hiking across this arid region, cataloging its 
geology. He found what appeared to be river channels carved 
into the native volcanic basalt bedrock. But the channels were 
dry, or had vastly undersized creeks flowing through them. He 
crossed broad areas of exposed basalt that were bordered by 
thick deposits of windblown topsoil, appearing as if some 
gigantic force had swept away the topsoil from the bedrock.
    He discovered a huge cataract, 400 feet high and over 3 
miles across, with a series of plunge-pool lakes stretching 20 
miles downstream. He also recorded large angular boulders 
resting on hillsides hundreds of feet above dry valley floors. 
These were granite and other rock types, some weighing over a 
hundred tons. The nearest possible source for such rocks is 
over a hundred miles away.
    To geologist J. Harlen Bretz, only one thing could explain 
these features. That thing is fast-flowing water, an 
unimaginable amount of water. Bretz originally called it the 
Spokane Flood, singular, but we now know that there were 
perhaps as many as 100 outbursts, and we call them the 
Missoula, or the Ice Age, Floods.
    The Pacific Northwest was the scene of the greatest series 
of cataclysmic outburst floods known to science. To be sure, 
other flooding occurred as continental ice melted, but nowhere 
else is there such dramatic evidence of repeated floods of this 
magnitude.
    Due, in part, to the efforts of Ice Age Floods Institute 
members, numerous State and local government officials, as well 
as other community organizations, have voiced their support of 
the trail concept to celebrate these amazing events. In fact, 
the Washington state legislature unanimously passed Senate 
Joint Memorial 8000 earlier this year. The memorial asks 
Congress to pass legislation creating the Ice Age Floods 
National Geologic Trail.
    The benefits of the Ice Age Floods National Geologic Trail 
to the citizens of the Pacific Northwest in particular, and to 
the American public in general, are several. The development of 
tourism will boost local, in large part rural, economies. 
Establishment of interpretive centers will attract tourists 
from within and without the four Northwest States.
    A study conducted for the Ice Age Floods Institute's 
Glacial Lake Missoula Chapter in 2002 examined the potential 
impact of an Ice Age Floods Interpretive Center located in 
Missoula, Montana. A conservative estimate of the amount of 
money generated by such an interpretive center by tourists from 
out of the State was over $2 million per year. Missoula is an 
eastern gateway of the trail. Many hundreds of miles of trail 
in numerous small towns and cities, with restaurants, hotels, 
and campgrounds lie to the west, in Washington, Idaho, and 
Oregon.
    Another related project provides similar information. Plans 
for the Hanford Reach Heritage Center, in Richland, Washington, 
are nearing completion. The Center, which is working in 
partnership with Washington State Parks and other groups, 
including our institute, will dedicate a significant portion of 
its display area to the topic of the Ice Age floods and could 
become an interpretive anchor for the floods trail. An economic 
study estimates between $5 million and $11 million per year 
will be generated by tourists visiting that facility.
    Thank you.
    [The prepared statement of Mr. Kleinknecht follows:]
Prepared Statement of Gary Kleinknecht, Past President, Ice Age Floods 
                        Institute, Kennewick, WA
    Thank you, Mr. Chairman, for holding this hearing and for the 
opportunity to testify. I would also like to thank Senator Cantwell and 
Senator Burns, Senator Craig, Senator Murray and Senator Smith for 
their sponsorship of S. 206.
    I am Gary Kleinknecht, past president of the Lake Lewis Chapter of 
the Ice Age Floods Institute. I am currently president of Board of 
Directors of the Institute. I am here today to speak in support of S. 
206, the Ice Age Floods National Geologic Trail Designation Act of 
2005.
    My testimony will exceed the time limit today, so I would like to 
submit the unspoken portion of my testimony for the record. I also have 
several letters and documents of support that I would like to submit as 
testimony, if I may.
    About a century ago a young high school biology teacher in Seattle, 
Washington became fascinated with the geology of the state. He became 
so interested in the topic that he enrolled in the University of 
Chicago and earned a PhD in Geology. With his new career he began a 
life long relationship with eastern Washington and the shrub-steppe of 
the Columbia Plateau. He spent summers hiking across this arid region, 
cataloging its geology. He found what appeared to be river channels 
carved into the native volcanic basalt bedrock, but the channels were 
dry or had vastly undersized creeks flowing through them. He crossed 
broad areas of exposed basalt that were bordered by thick deposits of 
windblown topsoil, appearing as if some gigantic force had swept away 
the topsoil from the bedrock. He discovered a huge dry cataract, 400 
feet high and over three miles across, with a series of plunge pool 
lakes stretching twenty miles downstream. He also recorded large 
angular boulders resting on hillsides hundreds of feet above dry valley 
floors. These were granite and other rock types, some weighing over 100 
tons. The nearest possible source for such rocks is over 100 miles 
away!
    To geologist J Harlen Bretz only one thing could explain these 
features. That thing is fast flowing water, an unimaginable amount of 
water. Other geologists determined that during the final millennia of 
the latest glacial period, huge lakes were formed behind glacial dams 
in the mountain valleys of western Montana. The largest of these 
glacial lakes contained 500 cubic miles of water, the equivalent of 
Lakes Erie and Ontario combined. Bretz's evidence for flooding was the 
result of ice dam collapse from the tremendous pressure exerted by a 
lake that reached a maximum depth of 2000 feet. Originally, Bretz wrote 
of one flood and called it the Spokane Flood. Today we refer to the 
Missoula floods or the Ice Age floods. There is evidence that as many 
as 100 floods burst from behind successive ice dams, reshaping the 
landscape of much of the Pacific Northwest as recently as 13,000 years 
ago.
    Over the past eight decades many other geologists have examined and 
reexamined Bretz's evidence. And they have found more evidence of 
floods. But the conclusion remains essentially the same. The Pacific 
Northwest was the scene of the greatest series of cataclysmic outburst 
floods known to science. To be sure, other flooding occurred as 
continental ice melted, but nowhere else is there such dramatic 
evidence of repeated floods of this magnitude. Only in recent decades 
have those of us outside the realm of geologic academia been exposed to 
this amazing story.
    In 1994 the Ice Age Floods Institute was organized as an 
educational nonprofit group dedicated to bringing the story of the Ice 
Age Floods to the public. For the past decade the Institute has 
conducted public field trips and programs on the floods and worked to 
make the public aware of this fascinating legacy of natural history. 
Our membership extends throughout the region of the floods from western 
Montana to the mouth of the Columbia River.
    In 1999 a number of Ice Age Floods Institute volunteers as well as 
other interested parties participated in the Ice Age Floods Study of 
Alternatives and Environmental Assessment, a special resource study 
undertaken by the National Park Service. The report on the study, which 
was published in 2001, recommends that an Ice Age Floods National 
Geologic Trail be established. S. 206 is the product of this 
cooperative effort.
    Due in part to the efforts of Ice Age Floods Institute members, 
numerous state and local government officials as well as other 
community organizations have voiced their support of the trail concept 
in written statements. In fact the Washington State Legislature 
unanimously passed Senate Joint Memorial 8000 earlier this year. The 
memorial asks Congress to pass legislation creating the Ice Age Floods 
National Geologic Trail.
    The National Park Service is often referred to as our nation's 
``story teller''. It has broad experience and expertise in the 
management of other trail systems such as the Lewis and Clark Trail, 
Oregon Trail and Selma to Montgomery Trail. We in the Ice Age Floods 
Institute are confident that the National Park Service will do an 
excellent job of coordinating and partnering with the many federal, 
state, local, tribal and private groups throughout the trail region to 
interpret these truly amazing events.
    The benefits of the Ice Age Floods National Geologic Trail to the 
citizens of the Pacific Northwest in particular and to the American 
public in general are several. The development of tourism will boost 
local, in large part rural, economies. Establishment of interpretive 
centers will attract tourists from within and without the four 
Northwest states. A study conducted for the Ice Age Floods Institute's 
Glacial Lake Missoula Chapter in 2002 by the Small Business Institute 
in the School of Business at the University of Montana examined the 
potential impact of an Ice Age Floods interpretive center located in 
Missoula, Montana. A conservative estimate of the amount of money 
generated by such an interpretive center by tourists from out of the 
state was over $2,000,000 per year. Missoula is an eastern gateway of 
the trail. Many hundreds of miles of trail and numerous small towns and 
cities with restaurants, hotels and campgrounds lie to the west in 
Idaho, Washington and Oregon.
    Another related project provides similar information. Plans for the 
Hanford Reach Heritage Center in Richland, Washington are nearing 
completion. The center, which is working in partnership with Washington 
State Parks and other groups, will dedicate a significant portion of 
its display area to the topic of the Ice Age floods and could become an 
interpretive anchor for the floods trail. An economic study conducted 
for the planning of the center estimates between $5,000,000 and 
$11,000,000 per year will be generated by that facility.
    Existing tourism will also be benefited by the creation of the 
National Geologic Trail. Much of the floods region that sustains 
agriculture has its own tourism industry and will benefit from the new 
visitors traveling on the Trail. Washington's and Oregon's wine 
industries are successful, in part, due to the soils that were 
deposited by the floods in the Yakima, Walla Walla and Willamette 
Valleys.
    The National Geologic Trail will also provide educational benefits. 
Fifty years ago only a handful of geologists knew about these floods. 
Today the floods story is part of mainstream geology and the general 
public is becoming aware of this fascinating topic. A trail will 
provide a vehicle to reach more and more people, not only through 
tourism, but also as destinations for local school field trips and 
potential environmental centers. Interpretive programs will be 
developed to reach citizens of all ages.
    The trail will also make it more likely that producers of 
educational television programs and videos and travel book authors will 
address the topic of the Ice Age Floods. A NOVA one-hour science 
program on the topic of these floods is scheduled to be aired in 
September of 2005. Several videos on the floods are currently available 
and a tour-guide book of the floods in the Mid-Columbia Region is in 
the process of being published and should be available by early 2006. 
As more people learn about the floods, the market for such educational 
programs and materials will grow.
    Early in the effort to promote the designation of the trail there 
was concern about private property rights. Land acquisition and 
violation of property owner rights are not what this legislation is 
about. This bill limits the amount of land that may be acquired by the 
Secretary of the Interior to a total of 25 acres for administrative and 
public information purposes. Any land so acquired must also be from a 
willing seller. The bill also states that trail designation creates no 
new liability for property owners.
    Another issue that concerns some westerners is the amount of 
federally owned land in western states that is not on the local tax 
rolls. The trail concept uses public land to generate tourism trade. 
This is another way to put public land to work for the public.
    For the above stated reasons, I and the Ice Age Floods Institute 
urge the United States Congress to pass S. 206, the Ice Age Floods 
National Geologic Trail Designation Act of 2005.
    Senator Thomas. Thank you very much.
    Mr. Snead.

  STATEMENT OF LARRY SNEAD, EXECUTIVE DIRECTOR, ARIZONA TRAIL 
       ASSOCIATION, PHOENIX, AZ, ACCOMPANIED BY LYN WHITE

    Mr. Snead. Mr. Chairman and members of the National Parks 
Subcommittee, I am very pleased and honored to have this 
opportunity to offer my testimony on S. 588, the Arizona Trail 
Feasibility Study Act.
    My name is Larry Snead, and I'm the executive director of 
the Arizona Trail Association.
    Before I tell you about the Arizona Trail, I'd like to talk 
for just a minute about the Arizona Trail Association. Founded 
in 1994, the Arizona Trail Association was founded as a 
nonprofit organization dedicated to the completion of the 
Arizona Trail, a trail that is becoming one of the premier 
long-distance trails in the country. Our supporters greatly 
value the recreational resources of the Arizona Trail and are 
dedicated to ensuring its development and maintenance for the 
future enjoyment of others.
    For the past 10 years, the Arizona Trail Association has 
coordinated over 2,000 volunteers, and has partnered with more 
than 16 Federal, State, and local agencies, as well as many 
businesses and organizations, all working together to plan, 
develop, and manage the Arizona Trail. In 2004 alone, a total 
of over 47,000 volunteer hours were recorded.
    A good example of the volunteer hours is--one of our board 
of directors is here today, Lyn White, to assist me in the 
testimony.
    On behalf of the Arizona Trail Association, our volunteers, 
and all Arizona Trail users, I thank the committee for 
providing this hearing.
    To my side, where Lyn is standing, is a general map of the 
Arizona Trail. This map is the same one that's in a packet of 
the written testimony that we provided you, but it will provide 
you a chance to review this as I make just a few additional 
comments.
    The Arizona Trail is a non-motorized trail that stretches 
for 800 miles through some of the State's most renowned 
mountains, canyons, deserts, and forests. The trail links these 
special landscapes with people and communities. The trail 
begins in the Coronado National Memorial, at the U.S./Mexico 
border, and goes north, ending at the Arizona/Utah border. As 
it connects these two points, the trail winds through some of 
the most rugged, spectacular landscapes in our country.
    The Arizona Trail was first envisioned by Flagstaff Arizona 
school teacher and outdoor enthusiast Dale Shewalter in the 
1980's. Today, Dale's vision of a continuous border-to-border 
trail across Arizona's unique landscapes has become a reality 
for hikers, equestrians, mountain bicyclists, and cross-country 
skiers who wish to experience the magnificent scenery Arizona 
has to offer.
    The Arizona Trail encompasses a wide range of ecological 
diversity as it crosses the State, passing through seven life 
zones, including such legendary landmarks as the Sonoran Desert 
and the Grand Canyon. It connects the lowland desert flora and 
fauna of Saguaro National Park and the pine and often snow-
covered San Francisco Peaks, Arizona's highest mountains, which 
are over 12,000 feet in elevation. Seven hundred and eighteen 
miles of the Arizona Trail have been completed, signed, and are 
currently open to the public. We have 82 miles remaining to 
build, all of which will be on public land.
    The Arizona Trail passes through four national parks, 
memorials, and monuments, four national forests, with 12 
different ranger districts, land managed by two different BLM 
field offices, one State park, and six wilderness areas.
    The Arizona Trail corporate community is very supportive of 
the Arizona Trail, and ATA is really pleased to have that kind 
of support, especially from Arizona icon companies, such as 
Phelps Dodge and Arizona Public Service, Salt River Project, 
Resolution Copper, REI, Wells Fargo, Southwest Gas, and 
National Bank of Arizona, just to mention a few.
    Thank you for the opportunity today to speak to you about 
the Arizona Trail. It is truly a recreational resource of 
national significance, and has all the qualifications to be a 
national scenic trail, which will become evident should a 
feasibility study be authorized by Congress.
    Before closing, I'd like to thank Senator John McCain and 
Senator John Kyl, who have been invaluable in their support of 
the Arizona Trail and have brought this legislation forward to 
this day.
    Mr. Chairman and distinguished members of the subcommittee, 
on behalf of the Arizona Trail Association Board of Directors, 
I would ask that you support the passage of S. 588.
    Thank you. And, with that, I'm available for questions.
    [The prepared statement of Mr. Snead follows:]
 Prepared Statement of Larry Snead, Executive Director, Arizona Trail 
                        Association, Phoenix, AZ
    Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Senate National Parks Subcommittee, 
I am very pleased and honored to have the opportunity to offer my 
testimony on S. 588, the Arizona Trail Feasibility Study Act. My name 
is Larry Snead and I am the Executive Director of the Arizona Trail 
Association.
                                  ata
    Before I tell you about the Arizona Trail, I'd first like to talk 
about the Arizona Trail Association. Founded in 1994, the Arizona Trail 
Association (or ATA) is a nonprofit organization dedicated to brining 
the Arizona Trail to completion--a trail that is now becoming one of 
the premiere long-distance trails in the county. Our supporters greatly 
value the recreational resource of the Arizona Trail and are dedicated 
to ensuring its development and maintenance for the future enjoyment of 
others.
    For the past decade, the Arizona Trail Association has coordinated 
over 2,000 ATA volunteers and more than 16 federal, state and local 
agencies, as well as many businesses and organizations, to plan, 
develop and manage the Arizona Trail. In 2004 alone, a total of 47,258 
ATA volunteer hours were recorded in 2004.
    On behalf of the Arizona Trail Association, our volunteers, and all 
Arizona Trail users, I thank the committee for providing this hearing.
                                az trail
    Mr. Chairman, to my side is a general map of the existing Arizona 
Trail.
    The Arizona Trail is a scenic, non-motorized trail that stretches 
for 800 miles through some of the state's most renowned mountains, 
canyons, deserts and forests. The Trail links these special landscapes 
with people and communities. The Trail begins in the Coronado National 
Memorial at the U.S./Mexico border and ends at the Arizona/Utah border 
in the North. As it connects these two points, the Trail winds through 
some of the most rugged, spectacular landscape in the Western United 
States. The Arizona Trail encompasses a wide range of ecological 
diversity in the state, extending through 7 life zones, including such 
legendary landmarks as the Sonoran Desert and the Grand Canyon. It 
connects the lowland desert flora and fauna in Saguaro National Park 
and the pine-covered San Francisco Peaks, Arizona's highest mountains 
at 12,633 feet in elevation.
    The Arizona Trail was first envisioned by Flagstaff schoolteacher 
and outdoor enthusiast, Dale Shewalter, in the 1970's. Today, Dale's 
vision of a continuous border-to-borer trail traversing Arizona's 
unique landscape has become a reality for hikers, equestrians, mountain 
bicyclists, and cross-country skiers who wish to experience the 
magnificent scenery Arizona has to offer.
    718 miles of the Arizona Trail have been completed, signed and open 
to the public. We have 82 miles remaining to build, all of which is on 
federal land.
    The Arizona Trail passes through 4 National Parks, 4 National 
Forest, land managed by 2 BLM Field Offices, 1 State Park and 6 
Wilderness Areas. 70% of the Arizona Trail is on National Forest, 10% 
on BLM, 10% on Arizona State Trust Land, 8% on National Parks and 2% 
private (the Babbitt Ranches north of Flagstaff and the Babbitt 
Foundation is in the process of donating an Arizona Trail easement to 
Coconino County).
    The Arizona corporate community is very supportive of the Arizona 
Trail and the ATA is pleased to have the support of Arizona icon 
companies such as Phelps Dodge, Arizona Public Service, Salt River 
Project, Resolution Copper, REI, Wells Fargo, Southwest Gas, and 
National Bank of Arizona.
    With the help of our supporters, the ATA has completed the 
fieldwork, editing, and photography for the Official Arizona Trail 
Guidebook to be available in fall 2005, and I would be happy to provide 
a copy to the subcommittee. I am also pleased to provide you with an 
ATA report on the progress of the Arizona Trail project.
    Thank you for the opportunity today to speak to you about the 
Arizona Trail. It is truly a recreational resource of national 
significance and has all the qualifications to be a National Scenic 
Trail which will become evident should a feasibility study be 
authorized by Congress.
    Before closing, I'd like to thank Senators John McCain and Jon Kyl 
who have been invaluable in their support of the Arizona Trail and have 
brought this legislation forward to this day.
    Mr. Chairman and distinguished members of the Subcommittee, on 
behalf of the Arizona Trail Association Board of Directors I would ask 
that you support the passage of S. 588.
    With that, I am available to answer questions.

    Senator Thomas. Okay, thank you very much.
    Welcome, Lyn. What is your other chart?
    Ms. White. This map shows the topography. It's the same. 
You can see the trail.
    Senator Thomas. Oh, I see.
    What is the big orange one up in the corner. Is that a 
reservation?
    Ms. White. That's the Navajo Reservation.
    Senator Thomas. Okay. Well, thank you so much. We 
appreciate that very much.
    Ms. Archuleta, what----
    Ms. Archuleta. Yes.
    Senator Thomas. This is a proposed expansion, then, of an 
existing area?
    Ms. Archuleta. No, sir. Actually, if the monument was to be 
expanded, that would have to be determined by the resource 
study. But, basically, it's the study area. The intention is to 
be able to see which management would best preserve--protect 
the area and also preserve the current uses, such as hunting, 
biking, grazing. The public was very specific about wanting to 
continue those uses of the land.
    Senator Thomas. What is already there, in terms of this 
land? How is it controlled?
    Ms. Archuleta. By the U.S. Forest Service and the Arizona 
State Land Department.
    Senator Thomas. I see. So, this is not an expansion; it's a 
change of classification?
    Ms. Archuleta. It would--the classification would be 
determined by the study.
    Senator Thomas. I see.
    Ms. Archuleta. So, if the study did say yes, this certain 
area of the monument should be expanded, then we'd have to talk 
about that. But what we're hoping is that the study will tell 
us whether the monument needs to be expanded; but, more than 
that, tell us what type of management would best continue those 
uses and also protect the monument.
    Senator Thomas. I see. Okay, thank you.
    Mr. Miller, what--this site that you talk about, then, part 
of it is a golf course. Would that continue to be a golf 
course?
    Mr. Miller. No, sir. It would be closed upon the 
acquisition of the property, which, now that we have the 
funding, we'll acquire that in October of this year, and the 
golf course will close. It will be immediately converted to an 
open field, in anticipation of developing a battlefield park.
    Senator Thomas. And your golfers?
    [Laughter.]
    Mr. Miller. Well, this--we have gone elsewhere.
    Senator Thomas. I see. Oh, well. Having been one of those 
who never could get associated with a game where the guy who 
hits the ball the most loses, I don't feel strongly about it.
    [Laughter.]
    Mr. Miller. Well, on the cost per stroke, I would imagine 
that it's pretty cheap golf.
    Senator Thomas. You mentioned, interestingly enough, 384 
sites that you said were significant as historic sites?
    Mr. Miller. Yes, sir. The battlefield historians have 
identified 367, I believe it is----
    Senator Thomas. Sixty-seven?
    Mr. Miller [continuing]. Battlefield sites. But only less 
than 4 percent of those are considered significant.
    Senator Thomas. I see.
    Mr. Miller. The Battle of Franklin is one of those----
    Senator Thomas. That's only 15. Really?
    Mr. Miller. Yes, sir.
    Senator Thomas. I wonder how many are designated as 
battlefield sites. Do you have any idea?
    Mr. Miller. I do not know.
    Senator Thomas. I think it's more than 15, but I'm not 
sure.
    You mentioned that money had been raised. Tell me again who 
raised the money.
    Mr. Miller. Half of the money, half of the $5 million was 
raised by the local community.
    Senator Thomas. Yes.
    Mr. Miller. And the city of Franklin challenged the local 
community by saying we would match them dollar for dollar up to 
$2\1/2\ million of the purchase price.
    Senator Thomas. So, this is local money, then.
    Mr. Miller. This is all local money, yes, sir.
    Senator Thomas. I see. Very good. Well, very interesting. 
Thank you.
    Mr. Kleinknecht, the Park Service, as they said this 
morning, has reluctance on this legislation. If it fails, what 
do you see, in terms of the degradation of resources? What do 
you see as happening, over time, without this act?
    Mr. Kleinknecht. Well, the floods, as a topic, is--it's 
going to be interpreted. State and local efforts have already 
done so. The problem that I see in not developing a trail is, 
we're not going to put the story together as one entire unit. 
We're talking about four separate States. Within those States 
we have various local governments that have some of the 
property that the floods features are on. And, in my eyes, the 
purpose of a trail is to put this thing together as a cohesive 
story of the force of nature and how it's shaped the planet we 
live on, at least the part in the Pacific Northwest.
    If the bill won't pass, we keep on keeping on, but the best 
won't happen.
    Senator Thomas. Now, this, then--simplified, this same 
water that began, where, in Montana?
    Mr. Kleinknecht. Yes, well, essentially, the Bitterroot 
Valley and neighboring valleys.
    Senator Thomas. That same pathway went all the way to the 
coast?
    Mr. Kleinknecht. Well, it took whatever pathway it wanted.
    Senator Thomas. Mr. Snead, there are a number of trails. 
What would you say is most significant about the designation of 
this trail?
    Mr. Snead. Well, first of all, there's no other national 
scenic trail that is in the Sonoran Desert.
    Senator Thomas. You don't have the Continental Divide 
Trail?
    Mr. Snead. The Continental Divide Trail goes into New 
Mexico out of the Sonoran Desert as the Pacific Crest Trail is 
in the Mojave Desert.
    Senator Thomas. I see.
    Mr. Snead. So, this adds--it adds the Sonoran Desert, and 
it adds the Grand Canyon.
    Senator Thomas. I see.
    Mr. Snead. And that's the thing that really makes it 
unique, is the diversity in the State.
    Senator Thomas. You cite on your chart the uncompleted 
trail. How are you going to complete it across the Grand 
Canyon?
    Mr. Snead. Well, we're in the process of--we're completing 
it right now. We have a 5-year plan, and we are----
    Senator Thomas. No bridge.
    Mr. Snead. What's that?
    Senator Thomas. No bridge.
    [Laughter.]
    Mr. Snead. No bridge.
    Senator Thomas. No bridge.
    Mr. Snead. No bridge, that's correct. We're using existing 
trails. The North Rim Trail has already been built and signed. 
The Inner Canyon, the South Kaibab and the North Kaibab, has 
been designated by the Park Service as the Arizona Trail.
    Senator Thomas. I see. I was looking right above Flagstaff 
there. I thought that was Grand Canyon. Well, thank you very 
much.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Kleinknecht, thank you for your testimony. And I know 
it's hard, particularly when individuals haven't seen the 
geography of this area, to really totally comprehend the 
scientific significance and the magnitude of the floods, but 
certainly when you think about Dry Falls and the fact that it's 
much bigger than Niagara Falls, and you realize that it's a dry 
fall today, it's very interesting, from a geological 
perspective.
    I know that NOVA is doing a 1-hour science program on this 
particular region, too, on its significance--but I wonder if 
you could help the committee today. Is there anything else on 
the planet, that has been discovered thus far, as far as the 
cataclysmic level of flooding and impact on a geography, on the 
planet?
    Mr. Kleinknecht. I am told, by some of the leading 
geologists in the country in the Pacific Northwest, that this 
is the biggest such event ever on the planet. In fact, a couple 
of letters that I'm going to submit as supporting testimony 
find only that there are similar features on Mars. In fact, in 
the 1990's, when NASA was conducting some research on the 
rovers that were going to be landed on Mars, they came to the 
Channeled Scablands of eastern Washington to use that as an 
analog.
    There is evidence of another flood, cataclysmic--similar 
story of an ice dam breaking--in Siberia. However, in terms of 
a series and the volume and that sort of thing, this is a one-
of-a-kind.
    Senator Cantwell. And the study of that, from a geological 
perspective and understanding is really--where would you say?--
in its infancy or----
    Mr. Kleinknecht. It's a toddler.
    [Laughter.]
    Mr. Kleinknecht. Very briefly, if I may--in the 1920's, J. 
Harlen Bretz first hypothesized this huge outburst flood--one 
flood, he thought, initially--and he was ridiculed by the 
geologic community. He was brought to Washington, D.C., and 
skewered in 1927. And he had started his career at the 
University of Washington as a professor, and eventually moved 
to his later--or earlier alma mater, the University of Chicago. 
He was awarded the Penrose Medal in the 1970's, I believe it 
was, in his 96th year. The Penrose Medal is the highest award a 
geologist can be awarded.
    Back to my story, the story started with Bretz fighting for 
his professional credibility. And really not until the 1970's 
did it become mainstream geology that these kind of things 
actually happened. And so, yes, this thing is growing rapidly. 
It's in its youth and will continue to grow, I'm sure, over the 
coming decades.
    Senator Cantwell. What are some of the--I know you 
mentioned economic benefits, but just from the pure geological 
field-trip understanding, to have this kind of a cataclysmic 
event be able to actually be studied and analyzed by geology 
students and----
    Mr. Kleinknecht. I hate to say this, but it's true: you 
have to see it to believe it. It is truly a mind-boggling 
experience to try to understand the force of the water that 
shaped that part of the country.
    I'm a high school teacher by profession. I was just told, 
this spring, by a graduating senior, that she was a little bit 
mad at me, because everywhere she drives in eastern Washington 
now, she's catching herself gawking rather than looking at the 
road. And I've plead guilty to that for years. It's an amazing 
thing.
    Senator Cantwell. Isn't there--just, if I could, Mr. 
Chairman--is there any other geological cataclysmic event 
that--okay, besides flooding, because we--you just described 
that you don't know of anything else like this on Earth--is 
there any other kind of cataclysmic event that you think that 
we are analyzing today or have done a good job of interpreting 
for either science, education, or public-interesting purposes?
    Mr. Kleinknecht. I could think of a few examples, I 
suppose. Mount St. Helens, Yellowstone National Park has the 
huge caldera, the work that has gone on to identify the 
meteorite that apparently landed near the Yucatan Peninsula and 
established the KT boundary and the end of the dinosaurs. We're 
talking significant stuff. I suppose, to someone who's not been 
exposed to the flood story, I may sound a little wacko. But 
come take a look.
    Senator Cantwell. Well, I thank you, Mr. Kleinknecht. I 
think that you just described what the challenge is. Some of 
the other examples, I think, have enjoyed either long historic 
interpretations or activities, such as Mount St. Helens or 
other volcanic activity, so we've responded to that. And I 
think we--I think it is about wrapping people's mind around the 
particular geological significance, and getting them to 
understand that. So, thank you very much for your testimony.
    Mr. Kleinknecht. Thank you.
    Senator Cantwell. Thank you, Mr. Chairman.
    Senator Thomas. Okay. Thank you.
    Well, thank all of you for being here. We truly appreciate 
you taking the effort to come. And I know this is not a very 
long presentation for all the travel you've done, but I hope 
you'll contact some of your folks while you're here and talk 
about these issues so that we can go forward with them.
    And I guess, more than anything, thank you for what you do 
locally to promote these things. I mean, that's where it really 
needs to begin, and that's where we get the kind of 
recommendations that should be taken up here, after they've 
been worked on, and will continued to be worked on, in the 
local areas.
    So, thank you all for being here. And if we have any 
further questions, why, we'll get them to you.
    Thank you so much. The committee is adjourned.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                                  Ice Age Floods Institute,
                                                      July 7, 2005.
Senator Craig Thomas,
Senate Subcommittee on National Parks.
    Dear Senator Thomas: Below are my responses to the questions you 
sent me concerning S. 206. Thank you, again, for the opportunity to 
offer testimony on this matter.
            Yours truly,
                                                  Gary Kleinknecht.

    Question 1. An Ice Age Trail currently exist in the Midwest. Will 
the geologic relationship between the two sites be told in any 
interpretive displays? Do you anticipate any future effort to join the 
two trails to form a single scenic or historic trail?
    Answer. The connection between the Ice Age Floods National Geologic 
Trail in the Northwest and the Ice Age National Scenic Trail in 
Wisconsin is that both present the effects of great ice sheets that 
occurred during the Pleistocene Epoch, but the stories are quite 
different. The Ice Age Floods Trail will interpret evidence left by a 
series of outbursts of tremendous volumes of water mainly from a huge 
ice-dammed lake in the mountain valleys of western Montana. These 
outburst floods amounted to the greatest series of floods recorded in 
the world and dramatically shaped the land across four states. The Ice 
Age Scenic Trail interprets features left by glaciers advancing and 
retreating across Wisconsin.
    Because of the Ice Age connection, it would be reasonable to make 
some reference to both areas in interpretive exhibits and literature, 
but physically or administratively connecting the two trails doesn't 
seem practical. The two units are some 1200 miles apart.
    Question 2. What type of interpretive facilities currently exist 
along the trail and what type do you envision having to construct to 
adequately interpret the area for visitors?
    Answer. As envisioned, the Ice Age Floods National Geologic Trail 
would emphasize using and enhancing existing interpretive facilities 
and would use major features on existing public lands in order to 
present the floods story to the public. Several interpretive facilities 
of varying scale and sophistication currently exist at important 
locations across the four Northwest states. Examples include facilities 
at Cabinet Gorge, Dry Falls, Palouse Falls, the Columbia Gorge 
Discovery Center and Crown Point. The Hanford Reach Heritage Center is 
currently in the design and development state. Most of these 
interpretive efforts are state and/or local facilities.
    However, the specific locations of trail routes and any new or 
enhanced facilities will be determined by the Management and 
Interpretive Plan called for in S. 206. The Plan would be accomplished 
through a public process and would include the Ice Age Floods Institute 
and the various land-holding and interpretive and scientific groups 
that have already participated or are now ready to participate in 
planning. Under the plan, actual development should be organized to 
proceed in logically ordered phases, recognizing needs, priorities and 
locating funding from appropriate sources.
    A tentative list of high-priority facilities and projects would 
probably include the following:
          1. An addition to the Montana Natural History Center in 
        Missoula, Montana, which is located at the eastern gateway to 
        the floods region. Visitors traveling from the east along 
        Interstate 90 will be introduced to the floods story and to 
        Glacial Lake Missoula at this location.
          2. Enhanced interpretive installations in the vicinity of the 
        ice dam and outbursts at Farragut State Park and Cabinet Gorge 
        Dam near the Idaho-Montana border.
          3. Enhancement or replacement of Washington State Parks' Dry 
        Falls Visitors Center, which is at one of the most significant 
        geological sites.
          4. The new Hanford Reach Heritage Center in Richland, 
        Washington, which is a project of the Richland Public 
        Facilities District and is currently in the design and 
        development stage. The Center will devote a large portion of 
        its display space to floods interpretation along with other 
        aspects of the region's natural and cultural history. The U.S. 
        Fish and Wildlife Service is a principal partner due to its 
        responsibilities for the Hanford Reach National Monument, and 
        provisions for the Service and other public agencies have 
        already been included in the plans. For the National Park 
        Service, this may be an opportunity to secure office space for 
        trail staff in centrally located facility.
          The NPS is not involved in either the construction, operation 
        or funding of this facility.
          5. Development of an interpretive Kiosk at the Port of Walla 
        Walla's proposed Wallula Gap overlook at Wallula, Washington.
          6. Additional floods interpretive displays added to the 
        Columbia Gorge Discovery Center at The Dalles, Oregon.
          7. Enhanced wayside exhibit at Oregon State Parks' Crown 
        Point facility overlooking the Columbia River Gorge.
          8. Additional exhibits about the floods at the Oregon Museum 
        of Science and Industry At Portland, Oregon.
    There are also several federal wildlife refuges, such as the 
Turnbull and the Columbia Wildlife Refuges in Washington State, which 
are significant for their floods features and have already installed 
some related interpretive signing.
    The National Park Service will not be involved in the operation of 
any of the facilities mentioned above. As the manager and coordinator 
of the trail, the guiding principle is for the NPS to partner with the 
various federal agencies and the state, local and tribal governments 
and private groups that are already doing, or are prepared to do pieces 
of the interpretive job. The NPS will not be engaged in managing 
increased landholdings and facilities, but will be promoting good 
coordination and continuity of the interpretive message presented to 
the public.
    Erecting signs, development of a public trail map and brochure will 
be needed to mark the various highways that will be the trail route. 
Costs for road signs and waysides are envisioned as being shared by the 
NPS, the various state Departments of Transportation and other 
interested partners. Use of Federal D.O.T. enhancement funds and 
coordination with each of the state DOT's would be sought wherever 
possible.
    Question 3. The National Park Service is opposed to this 
legislation. What, if any, degradation of the resources do you foresee 
if this legislation fails to pass in the 109th Congress?
    Answer. The current opposition of the NPS does not seem to 
recognize that the basic concept of this project is that it will be a 
significant partnership of groups and agencies that already are 
committed to explain special features of the natural landscape. With 
the legislation, the National Park Service would be the coordinator for 
the presentation of the floods phenomenon and the one unifying partner 
of the many interested partners across the four Northwest states.
    We don't expect to see significant degradation of resources 
resulting from a failure of this legislation to pass. However, if the 
bill fails to pass, there would very likely be a reduced level of 
activity by the various partners that are currently working to develop 
interpretive efforts. The resulting degradation would be in the form of 
omission, confusion and possibly error in presentations undertaken 
without the framework that would have been provided by S. 206.
    Since the release of the Ice Age Floods Alternatives Study Report 
in 2001, interest in presentation of the floods story has grown 
immensely. The various partners involved in the interpretive efforts 
mentioned in my previous answer have been working under the assumption 
that there will be an Ice Age Floods National Geologic Trail as 
recommended in the Alternatives Study Report and as originally 
supported by the Department of the Interior and the National Park 
Service as the ``Most Effective and Efficient Management Alternative'' 
when the final report was transmitted to Congress in August 2001. 
Partners have often expressed concern that they want their interpretive 
efforts to meet National Park Service standards, and that they want to 
be a part of a single, encompassing, well-coordinated project, with 
unambiguous national designation.
    Failure to develop the national trail will result in fragmented 
efforts. This story crosses four western states, each with a unique 
part of the story to tell. From personal experience we know that most 
people tend to see the story of the floods from the perspective of what 
is in their own local area. To a Montanan the floods are mainly Lake 
Missoula. To an Idahoan they are the Ice Dam. To a Washingtonian they 
are the Channeled Scablands. To an Oregonian they are the Columbia 
Gorge or the Willamette Valley. For the whole story to be told in a 
unified fashion there must be a coordinating, overseeing entity. We 
believe that the National Park Service, given their national expertise 
in resource interpretation, can best serve this role.
    Question 4. Is any of the area currently recognized by state of 
county statute as resources worthy of protecting?
    Answer. Several floods sites are already recognized for their 
interpretive value. Washington's Palouse Falls and Dry Falls are both 
state parks. Idaho's Farragut State Park is located at the point of 
flood outburst. Oregon's Crown Point Scenic Corridor and Glacial 
Erratic State Park are similarly recognized as significant to the 
floods story. Benton County Parks (Washington) owns over one square 
mile land atop Bader Mountain as a preserve for public hiking and 
intends to partner with the Ice Age Floods Institute and perhaps others 
to develop a floods related viewpoint and install floods interpretive 
signs.
    Question 5. What role do you see the Ice Age Floods Institute 
related to the possible designation of the Ice Age Floods Trail?
    Answer. The Ice Age Floods Institute is an educational 501(c)(3) 
non-profit volunteer group. Our mission is to promote public awareness 
and understanding of the Ice Age Floods. Our efforts will continue to 
be educational in nature.
    If the trail is established as an NPS unit, the Institute would 
logically be the group that should become the principal affiliated 
private organization, and we believe that we would be effective in that 
capacity.
    As provided in Section 5 of S. 206, the Institute would participate 
in the Interagency Technical Committee's work to assist in the 
development of the required Management and Interpretation Plan for the 
trail.
    The IAFI is considering the establishment of a related foundation 
that may promote research into floods topics, perhaps by providing 
grants and scholarships, and we have discussed supporting the 
reprinting of significant floods-related publications.
    We will continue to promote the development of K-12 curriculum 
materials to reach teachers and students.
    As in the past, the IAFI will continue to conduct public field 
tours to floods sites and to present programs to local audiences. We 
have reached thousands of people, including K-12 teachers, over the 
last nine years.
    An important role for the IAFI is to promote professionalism and 
peer review in the study of the floods. IAFI members who are experts in 
the various aspects of floods study will be available to ensure 
accuracy of interpretive efforts, and to assist writers and producers 
in the preparation of materials for general audiences.
    A number of IAFI members are involved in tourism and the 
hospitality industry. In a variety of ways, we could provide technical 
assistance in the development of relationships, activities and 
materials to promote tourism related to the trail and the floods.
    Given all these initiatives, in our role as a non-profit 
educational organization, the IAFI would be an augmentation and a 
complement to the NPS management of the trail, not a replacement of the 
important coordination and collaboration role the NPS would play.
                                 ______
                                 
                                          City of Franklin,
                                       Franklin, TN, July 12, 2005.
Senator Craig Thomas,
Chairman, Subcommittee on National Parks, U.S. Senate, Committee on 
        Energy and Natural Resources, Washington, DC.
    Dear Senator Thomas: I am writing on behalf of Mayor Tom Miller in 
response to the questions you posed in your letter dated June 28, 2005. 
I am the Historic Preservation Officer for the City of Franklin, 
Tennessee.

    Question 1. How many visitors would you expect to travel to the 
site on an annual basis if it is designated as a unit of the national 
park system?
    Answer. The Stones River National Park in Murfreesboro, which is 
about 30 miles from Franklin, has over 200,000 visitors per year. We 
would fully expect to attract this many or more if the Battle of 
Franklin sites are designated as a unit of the national park system.
    Question 2. Are any structures currently located on the site of the 
Battle of Franklin and what would happen to those structures if this 
legislation is enacted?
    Answer. The potential battlefield park is currently operated as a 
golf course by the country club. It has a clubhouse and other buildings 
associated with the operation of the club and golf course. With the 
exception of the clubhouse itself, which will become a battlefield 
interpretation center, the other structures associated with the club 
will be removed.
    Question 3. Do you expect to raise funds from private donors for 
the acquisition and management of the site?
    Answer. As indicated in my testimony, a group of preservation-
related non-profit organizations has come together under the name 
Franklin's Charge to raise money for the battlefield acquisition. To 
date, they have raised nearly $2.5 million, which the City will match 
in order to acquire the property.
    Question 4. For how long has the site been used as a golf course 
and what impact has such use had on the integrity of the battlefield?
    Answer. The country club began in the early 1970s and has operated 
since that time. As would be expected, grading and other alterations to 
the site have occurred. However, the site's context retains a great 
deal of integrity because it is bound by the Carnton plantation 
property, the Harpeth River and the historic Lewisburg Pike.
    Question 5. Does the City of Franklin interpret the Battle of 
Franklin?
    Answer. Currently, the City operates two parks related to the 
Battle of Franklin: Winstead Hill and Fort Granger. At these sites, 
interpretive signage and other special educational events are used to 
educate the public. The City participates as a partner with the private 
sector on projects related to the interpretation of the battlefield, 
such a producing brochures and other initiatives. Additionally, the 
Board of Mayor and Aldermen recently appointed a task force to oversee 
the implementation of the recently completed Battlefield Preservation 
Plan. The American Battlefield Protection Program of the National Park 
Service funded the plan.
    Please contact Mayor Miller or me if we can provide additional 
information. He can be reached at 615.791.3217 or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e232f37213c0e283c2f202522272063">[email&#160;protected]</a>
gov.com. I can be reached at 615.550.6733 or at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="314259505f5e5f46715743505f5a5d585f565e471f525e5c1f">[email&#160;protected]</a>
            Sincerely,
                               Shanon Peterson Wasielewski,
                                     Historic Preservation Officer.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

       Department of Hydrology and Water Resources,
                                 The University of Arizona,
                                         Tucson, AZ, June 24, 2005.
Senator Craig Thomas,
Chairman, Senate Subcommittee on National Parks, U.S. Senate, 
        Washington, DC.
    Dear Distinguished Committee Members: I write in regard to the Ice 
Age Floods National Geologic Trail designation legislation that is 
before your committee. The proposed legislation will create a most 
worthy entity to be managed as a trail by the National Park Service. 
The science in regard to this trail, which I have pursued for nearly 40 
years, will be absolutely fascinating for the nation's public. The 
Trail will document what is arguably to the most spectacular geological 
phenomenon to have occurred on our planet in the past 20,000 years. The 
region was inundated by the largest and most energetic flows of fresh 
water that we know about in Earth history. About 16,000 years ago, 
these floods produced amazing landscapes that can best be appreciated 
by following their course from sources in western Montana through 
northern Idaho and into the Channeled Scabland of east-central 
Washington. The trail further follows the flooding pathway down the 
Columbia River valley between Washington and Oregon, ultimately leading 
to the abyssal plains of the Pacific Ocean.
    For the past two years I have been involved with a British 
television documentary team in making a program about these great 
floods. The production cost has run to nearly $2 million, and it only 
begins to introduce the magnificence of this story. How much more 
educational and enjoyable it will be for our citizens and visitors to 
follow this fantastic flood story by their travel along its actual 
path.
    The Ice Age Floods National Geologic Trail will be a tremendous 
resource for science education. In the mid-1990s I worked with NASA 
scientists from the Pathfinder Mars Landing Mission to use the flood 
landscape of eastern Washington to prepare for the Mars landing. The 
landing site was in an ancient Mars flood channel, and the Ice Age 
Floods terrain was our only Earth analogue to this fantastic find on 
Mars. I think this will all have immense appeal for those who 
experience the Ice Age Floods National Geologic Trail.
    I most strongly urge the formal designation of the Ice Age Floods 
Geologic Trail as a fantastic opportunity to bring the nation's public 
to this most fascinating geological story.
            Sincerely,
                                           Victor R. Baker,
                                                Regents' Professor.
                                 ______
                                 
 Statement of Eugene Kiver, Professor, Department of Geology, Eastern 
                   Washington University, Cheney, WA
    I wish to lend my enthusiastic support to the establishment of an 
Ice Age Floods National Geologic Trail administered by the National 
Park Service. We in the United States are blessed by an amazing variety 
of natural features, many of which are highlighted in the National Park 
System. Missing from the great variety that is showcased in our Park 
System is one of the most incredible geologic events to affect the 
earth's surface and that impacted the four-state area in the Pacific 
Northwest.
    I am Dr. Eugene P. Kiver, Ph.D,. R.G. and am Professor Emeritus of 
Geology at Eastern Washington University in Cheney, Washington. I have 
taught geology full time for 32 years and part time for the past 4 
years making a total of 36 years of teaching and geological research 
experience. I am a Registered Geologist in the State of Washington. I 
have authored or co-authored over 100 professional publications, 
technical reports, and geologic field guides, many of which deal with 
the subject on hand. I am also the lead author in ``The Geologic Story 
of the National Parks'' textbook published in 1999 by John Wiley & 
Sons, Inc.
    The recognition that a catastrophic flood of epic proportions 
occurred on the face of the Earth was not believed by most of the 
scientific community when first introduced by J Harlen Bretz in the 
1920s. No such event had ever been documented in the geologic record 
thus spawning a suspicion that this unorthodox explanation would not 
hold up to careful scrutiny. The story of the winning over of the 
skeptics by the use of solid and thorough field evidence through 
decades of careful work is in itself a major story in the history and 
methodology of Science. Finer details are still being refined and will 
be for many generations making the topic relevant and exciting to both 
scientists and lay people alike.
    Other areas around the globe have since been discovered where 
catastrophic floods, particularly those related to the recent Ice Age, 
are now known. The Missoula Flood events in the Pacific Northwest 
remain one of two large areas in the world affected, the other being in 
a relatively inaccessible area in Siberia on the Asian Continent. The 
type example of large-magnitude flood processes and by far the best-
studied area is the Channeled Scabland of eastern Washington and the 
associated areas in nearby states. Each region along the floodpath has 
its own special story; hence the idea of a national geologic trail is a 
logical way to enable lay people, educators, and scientists to 
integrate the evidence located in widespread geographic locations.
    Because the geologic story involves a vast landscape that stretches 
from northwestern Montana, northern Idaho, and through Washington and 
Oregon and hundreds of miles out into the Pacific Ocean, this is not 
the type of story that can be documented at one locality. Thus a broad 
geographic perspective is needed where bits of evidence along the 800-
mile-long flood path can be examined. Humans are basically driven by 
the need to explore and who seek out new experiences and knowledge. 
Learning is a lifetime endeavor for those who have a healthy need to 
better know the past. We need to provide those opportunities to those 
who pursue these rich experiences.
    The impact of a collapsing ice dam in northern Idaho that unleashed 
some 500 cubic miles of water in a few days excites the imagination and 
appreciation for the rich history found in the landscapes of our 
northwestern states. The enormity of the floods would seem initially to 
be a story from Hollywood or Science Fiction. Yet the story is real. As 
a scientist who has studied these phenomena for over 30 years I feel 
that the story should be shared with others. I encounter great 
enthusiasm of students and community groups where I frequently present 
the topic. The idea of a wall of water hundreds of feet deep roaring 
across the landscape and in some cases exceeding the Interstate speed 
limits excites those who learn the story. When one compares the effects 
of the 25-foot-high Dec. 26, 2004 tsunamis in the Sumatra region with 
the hundreds of feet of water during the Ice Age floods it initially 
defies the imagination until the incredible landforms and the flood 
story are understood. To enrich the lives of our present and future 
citizens and visitors from other countries by making these experiences 
available would be a significant contribution and would contribute to 
our legacy for future generations.
                                 ______
                                 
  Statement of Roy Breckenridge, State Geologist, Idaho; Edmond Deal, 
State Geologist, Montana; Vicki S. McConnell, State Geologist, Oregon; 
             and Ron Tessiere, State Geologist, Washington
    The Ice Age Floods that occurred periodically during the time of 
the great Cordilleran Ice Sheet profoundly influenced the shape of the 
land along the Columbia River basin from Montana to the mouth of the 
Columbia River. These glacial and flood events are responsible for the 
much of the present landscape and scenery as well as being the source 
of numerous geologic, soil, and water resources of the four state 
region. The floods were so large that it was not until we began to 
capture satellite images of the earth's surface that scientists were 
able to determine the full extent of the floods and to confirm earlier 
geologist's field observations and interpretations. These large-scale 
natural events have left us with a fascinating and important geologic 
legacy whose evidence remains visible to this very day.
    As the State Geologists of the four states affected by the Ice Age 
Floods we enthusiastically support the concept of developing a geologic 
trail to trace the path of the floods across our states. Such a trail 
would offer unparalleled opportunities to become an in-situ learning 
laboratory for the general public as well as furthering scientific 
research on the causes and effects of the floods. We understand and 
support the vision for partnering with tribal, state, and local 
entities to increase the scope of the trails and the possibilities for 
education and research.
                                 ______
                                 
              International Mountain Bicycling Association,
                                        Boulder, CO, June 30, 2005.
Senator Craig Thomas, Chairman,
Senator Daniel Akaka, Ranking Member,
Senate Committee on Energy and Natural Resources, National Parks 
        Subcommittee, Dirksen Senate Office Building, Washington, DC.
    Dear Chairman and Ranking Member: The International Mountain 
Bicycling Association (IMBA) strongly supports S. 588, the Arizona 
Trail Feasibility Study Act. The Arizona Trail exemplifies how a trail 
can unify a community while accommodating many diverse interests.
    IMBA, a national education and advocacy organization, represents 
32,000 individual members and 550 affiliated bike clubs. IMBA works to 
create, enhance, and preserve trail opportunities for mountain bikers 
coast to coast.
    The Arizona Trail has been designed and planned with shared uses in 
mind--hiking, bicycling, and equestrian use. This stands in contrast to 
the single-use, hiking-only approach adopted by proponents of the North 
Country National Scenic Trail and the complete ban on bicycling on the 
Pacific Crest National Scenic Trails. IMBA believes that most national 
scenic trails, which consume significant public resources and funds, 
should serve more than single user groups. IMBA will continue to 
support hiking-only sections of national trails, but because national 
scenic trails span thousands of miles, we believe there is enough room 
for all trail users to benefit.
    Mountain bikers have been instrumental in building and maintaining 
the Arizona Trail. Only this year, two new segments of the Arizona 
Trail were completed through the efforts of IMBA-affiliated mountain 
biking clubs in Arizona. The Arizona Trail is a remarkable example of 
what can be achieved when all non-motorized trail users work together.
    From the beginning, Arizona Trail advocates have welcomed and 
included mountain bike use. The Arizona Trail was originally conceived 
as a non-motorized, multi-user trail. Although parts of the Arizona 
Trail travel through Wilderness Areas, where mountain biking is not 
permitted, the Arizona Trail Association has committed to building 
alternative routes that will accommodate mountain bikes. In turn, 
cyclists have always respected those portions of the Arizona Trail upon 
which mountain bikers are not permitted.
    We were very pleased when the National Park Service agreed to allow 
bicycling on its section of the Arizona Trail north of the Grand 
Canyon. As you may know, the NPS bans bicycling from most trails; 
however, they made a decision to make this important connection shared-
use.
    IMBA members are stellar public servants who collectively 
contribute almost one million hours of volunteer trailwork on public 
and private lands annually. IMBA believes that the bicycling community 
will increase its contribution of labor and resources as the Arizona 
Trail continues to evolve.
    We respectfully ask the committee to pass the Arizona Trail 
Feasibility Study Act.
    Signed,

                                   Mike Van Abel,
                                           IMBA Executive Director,
                                           Representative.
                                   Sonya Overhoser,
                                           IMBA Arizona.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
